<html>
<title> - REPORT OF THE INDEPENDENT COMMISSION ON THE SECURITY FORCES OF IRAQ</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-88]
 
  REPORT OF THE INDEPENDENT COMMISSION ON THE SECURITY FORCES OF IRAQ

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 6, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                     U.S. GOVERNMENT PRINTING OFFICE
37-733 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
JAMES R. LANGEVIN, Rhode Island      JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK MURPHY, Pennsylvania         MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, September 6, 2007, Report of the Independent Commission 
  on the Security Forces of Iraq.................................     1

Appendix:

Thursday, September 6, 2007......................................    45
                              ----------                              

                      THURSDAY, SEPTEMBER 6, 2007
  REPORT OF THE INDEPENDENT COMMISSION ON THE SECURITY FORCES OF IRAQ
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Jones, Gen. James, (Retired), U.S. Marine Corps, Chairman, 
  Independent Commission on the Security Forces of Iraq 
  accompanied by; the Hon. John Hamre, Member, Independent 
  Commission on the Security Forces of Iraq; Gen. George Joulwan, 
  (Retired), U.S. Army, Member, Independent Commission on the 
  Security Forces of Iraq; and Chief Charles H. Ramsey, Member, 
  Independent Commission on the Security Forces of Iraq..........     3
McCausland, R.D., MA, Assistant Chief Constable, Urban Region, 
  Belfast, Ireland...............................................    23

                                APPENDIX

Prepared Statements:

    Hunter, Hon. Duncan..........................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Ortiz....................................................    59
  REPORT OF THE INDEPENDENT COMMISSION ON THE SECURITY FORCES OF IRAQ

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, September 6, 2007.
    The committee met, pursuant to call, at 2:35 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Before we start our hearing, which is a very, 
very important one, and we appreciate the witnesses, I will not 
tolerate anyone now, during this hearing, or before this 
hearing being here and using any of our facilities for 
propaganda purposes. The one who did so was just escorted from 
the chambers.
    The committee will come to order. Today, we receive the 
testimony of the Independent Commission on the Iraqi Security 
Forces.
    Attending this afternoon are our old friend, General Jim 
Jones, the chairman of the Commission, as well as the other 
commissioners who are joining him at the witness table.
    General Joulwan, good to see you again.
    General Joulwan. Good to see you, sir.
    The Chairman. Former Secretary of Defense, John Hamre, good 
to see you.
    Chief Ramsey, thank you so much for being with us.
    The Independent Commission was mandated by the supplemental 
appropriations bill we passed earlier this year. The Commission 
was charged with conducting an independent assessment of the 
Iraqi Security Forces.
    A similar assessment was carried out by our Oversight 
Investigations Subcommittee earlier this year under the 
leadership of Marty Meehan and Todd Akin. As you know, Marty 
Meehan has left Congress and gone into the field of education. 
I hope the Independent Commission found their report to be 
helpful.
    The Independent Commission's report raised a number of 
questions about the ability--more importantly, the motivation 
of the Iraqi Security Forces to take over responsibility for 
security from the American forces.
    I think most of us agree that the Iraqi Army is in better 
shape than some of the other forces and has shown some 
improvement over time. But, as the Government Accountability 
Office (GAO) mentioned in yesterday's hearing, Mr. Walker 
testifying, there are still concerns about sectarian activities 
by some of the army units. I hope the Commission will address 
that question.
    The Iraqi Security Forces are one of the vital pieces in 
the current strategy in Iraq. They are the forces that are 
supposed to support ours in the surge. They are the forces that 
are going to have to hold areas that American forces have 
cleared when the American forces pull back from providing the 
primary security in Baghdad, Anbar, and a few other areas. They 
are ultimately the forces that will have to take over the fight 
against the insurgency. The faster they can take over the fight 
the better.
    This committee and the Congress will face significant 
questions about the future mission of U.S. forces and about how 
best to continue the mission of training and equipping Iraqi 
Security Forces. We need your critical assessment, gentlemen, 
on how to move forward.
    General Jones, John Hamre, General Joulwan, Chief Ramsey, 
thank you again for appearing to be with us; and we are very, 
very appreciative.
    I now call on my friend, my colleague from California, 
Ranking Member Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman; and thank you for 
having this hearing.
    Mr. Chairman, I know a lot of our members participated in 
the fairly extensive hearing this morning starting at nine 
o'clock with respect to Iraq, and so what I would like to do is 
offer my written statement for the record.
    I know you have got lots of folks who want to ask questions 
and lots of good testimony to give, so let me just welcome all 
of the members and note that, from my perspective, the stand-up 
and the reliability of the Iraqi Army is I think the key force 
for stability and success in Iraq. So, obviously, a very 
critical issue--for this member, the most critical issue of 
all--the dimensions that we are presently examining with 
respect to the prospects for Iraq.
    So thanks for being with us; and, Mr. Chairman, that 
completes my statement. I look forward to the witnesses.
    The Chairman. The gentleman's prepared statement will be 
put in the record without objection, and we thank you.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 49.]
    The Chairman. General Jones, let's go ahead and proceed, 
sir. And thank you again for taking this undertaking.

 STATEMENT OF GEN. JAMES JONES, (RETIRED), U.S. MARINE CORPS, 
CHAIRMAN, INDEPENDENT COMMISSION ON THE SECURITY FORCES OF IRAQ 
   ACCOMPANIED BY; THE HON. JOHN HAMRE, MEMBER, INDEPENDENT 
  COMMISSION ON THE SECURITY FORCES OF IRAQ; AND GEN. GEORGE 
 JOULWAN, (RETIRED), U.S. ARMY, MEMBER, INDEPENDENT COMMISSION 
 OF THE SECURITY FORCES OF IRAQ; AND CHIEF CHARLES H. RAMSEY, 
 MEMBER, INDEPENDENT COMMISSION ON THE SECURITY FORCES OF IRAQ

    General Jones. Thank you, Mr. Chairman and Mr. Hunter. 
Ladies and gentlemen of the committee, it is a distinct honor 
for this Commission to appear before you this afternoon. We 
thank all of you for the high honor to be able to be here to 
speak with you of the work that the Commission has done over 
the past few months.
    To carry out our mandate from the Congress, we assembled a 
highly qualified team of 20 prominent senior retired military 
officers, chiefs of police. We have a former Deputy Secretary 
of Defense. And to show that we are really serious we also have 
two sergeants major, one from the Army and one from the Marine 
Corps, who kept us in line and provided much of the discipline 
that we sorely needed during the research that we did.
    This independent team is supported by the Center for 
Strategic and International Studies. It brings more than 500 
cumulative years of military and defense expertise and 150 
years of law enforcement experience in the professional 
disciplines that we were charted to examine. The Commission 
consisted of 10 syndicates, which examined each element of the 
Iraqi Security Forces and the principal cross-cutting issues 
that support each syndicate.
    It is now my pleasure to take a moment to introduce our 
commissioners to you.
    First, let me introduce the members of our Army and ground 
forces syndicate, starting with General George Joulwan, United 
States Army, retired, the syndicate Chair, and joining me to my 
left at the witness table.
    General John Abrams, United States Army, retired.
    General Charles Wilhelm, USMC, retired. Unfortunately, 
General Wilhelm was not able to be with us today, as was 
Lieutenant General John Van Alstyne, U.S. Army, retired, who 
was unable to be here.
    Sergeant Major Alfred McMichael, the 14th Sergeant Major of 
the Marine Corps, and Command Sergeant Major Dwight Brown of 
the United States Army, retired, are here with us.
    Brigadier General Richard Potter, U.S. Army, retired, who 
examined the Iraqi Special Forces, unable to be here today.
    Our Commission also benefited from the experience of 
Admiral Gregory Johnson, United States Navy, retired, who 
principally addressed the progress of the Iraqi Navy; General 
Charles Boyd, U.S. Air Force, retired, who focused on the Iraqi 
Air Force and contributed much to our strategic discussions.
    The Commission benefited from over 150 years of law 
enforcement experience, as I previously mentioned, by a team 
headed by Chief Charles Ramsey, who is joining me here at the 
witness table.
    Chief Ramsey has assembled a distinguished group of police 
chiefs, to include the Honorable Terry Gainer, who also is 
currently serving as the Senate Sergeant at Arms; Chief John 
Timoney, the Chief of Police of the City of Miami, who could 
not be here today; Chief Michael Heidingsfield, a former 
contingent commander for the police advisory mission in Iraq, 
who gave us some perspective with regard to earlier years in 
Iraq and today; Assistant Chief Constable Duncan McCausland, 
who joined our Commission from Belfast, Northern Ireland, who 
added the voice of years of experience in Northern Ireland and 
was a key contributor to our team; Lieutenant General Martin 
Berndt, United States Marine Corps, retired, who focused on the 
Iraqi border security under the Ministry of the Interior.
    We also had a number of commissioners who examined 
crosscutting issues across the length and breadth of the Iraqi 
Security Forces. First, the former Deputy Secretary of Defense, 
the Honorable Dr. John Hamre, who is at the witness table, who 
studied in particular resource allocation and budget matters; 
Lieutenant General Jim King, U.S. Army, retired, studied 
intelligence; Lieutenant General Gary McKissock, United States 
Marine Corps, retired, who was our logistical expert; Major 
General Arnold Punaro, United States Marine Corps, retired who 
was our personnel expert.
    Our staff was ably directed by Ms. Christine Wormuth from 
the Center for Strategic and International Studies (CSIS). We 
also benefited from strategic advisors Mr. Jim Locher, Mr. P.T. 
Henry, Mr. John Raidt, Ms. Sarah Farnsworth and Col. Art White, 
and obviously a very able staff from CSIS.
    Mr. Chairman, as you know, we were asked to conduct an 
independent assessment of the Iraqi Security Forces and to 
report back to the appropriate committees no later than 120 
days from the date of enactment. We are making this report at 
roughly the 90th day, so we were able to complete our mission 
relatively expeditiously.
    As laid out in our enacting legislation, our report 
addresses the readiness of the Iraqi Security Forces in four 
principal areas. The first is to evaluate their ability to 
assume responsibility for maintaining the territorial integrity 
of Iraq; the second, to evaluate their ability to deny 
international terrorists a safe haven in Iraq; third, to 
evaluate their ability to bring greater security to Iraq's 18 
provinces within the next 12 to 18 months; and, fourth, to 
evaluate their ability to bring an end to sectarian violence 
and to achieve national reconciliation.
    Additionally, the Commission was tasked with an assessment 
of Iraqi Security Force capabilities in the areas of training, 
equipment, command and control, intelligence, and logistics. 
Each of the 10 syndicates was led by a senior commissioner and 
focused on either a discrete component of the Iraqi Security 
Forces or a crosscutting functional area. Syndicate inputs were 
subject to review and integration by all Commission members. 
During the course of its study, the Commission traveled widely 
throughout Iraq on three separate occasions, spending a total 
of three weeks on the ground gathering facts and impressions 
firsthand.
    Mr. Chairman, from this point on I will refer to a series 
of charts that will be displayed here to my right but also in 
your books, and I will refer to the pages where you can find 
those slides if the details aren't available to you here. So I 
would ask you if you would please turn to page 23 and 24 in the 
report, as my next remarks will address those slides.
    We made more than 70 site visits in Iraq. And as you can 
see from the charts in front of you and on your desk, this 
included visits to the Iraqi military, ministerial 
headquarters, and the various command centers, training 
facilities, and operating bases. We also visited Iraqi police 
stations, joint security stations, and law enforcement 
academies; and commissioners traveled to border, port, and 
internal security installations, as well as to Coalition 
facilities designed to assist with Iraqi security training and 
transition. These visits were invaluable to us, as they allowed 
us a firsthand look at the real work being accomplished daily 
by members of the Iraqi Security Forces and their dedicated 
Coalition partners.
    The Commission met with more than 100 Iraqi officials, more 
than 100 U.S. and current former government officials, and more 
than a dozen leading non-governmental experts on the subject of 
Iraqi Security Forces.
    Finally, the Commission examined previous studies and 
reports, key data, and documents with information relevant to 
the performance and status of the Iraqi Security Forces, the 
rate of progress, and their prospects for fulfilling the 
responsibilities of a professional and effective security 
force.
    Before addressing our key findings, I would like to 
emphasize that the findings and recommendations by this 
Commission were endorsed unanimously by all members of this 
Commission.
    I would also like to note that the Commission could not 
have performed its work without the generous assistance and 
support of many, many individuals. In particular, we are 
grateful for the support provided by the Office of the 
Secretary of Defense, the Joint Staff, the Multinational Force 
Iraq, the entire military chain of command, as well as the 
Department of State and Embassy Baghdad. We also appreciate the 
openness we were shown by many officials of the government of 
Iraq.
    Ladies and gentlemen of the committee, the Iraqi Security 
Forces are made up of two major components, the Iraqi military 
and the Iraqi police. The Commission examined both components 
and their governing ministries in order to fulfill our mandate.
    The Iraqi military includes the Army, Special Forces, the 
Air Force, and the Navy. They operate under the Ministry of 
Defense, and today they number approximately 152,000 personnel 
in uniform.
    Iraqi police forces include the Iraqi Police Service, the 
National Police, the Border Forces, and the Facilities 
Protection Services. They operate under the Ministry of the 
Interior, and their total number is approximately 324,000.
    In terms of overall results, the consensus opinion of the 
Commission is that the most positive event that can occur in 
the near term to influence progress in Iraq is a government-led 
political reconciliation which leads to an end to sectarian 
violence. Everything seems to flow from this point, to include 
the likelihood of a successful conclusion to our own mission. 
Absent that event, it will certainly be harder and it will take 
longer in order to be successful.
    Our overall evaluation of the Iraqi Security Forces is that 
real progress has been achieved, though it is relatively uneven 
across the span of the security forces. With regard to the 
Ministry of Defense, we note good progress. We note the 
existence of a strategic vision for the future and eagerness to 
take on more responsibility. We note the presence of thousands 
of young Iraqis eager to join the armed forces.
    We note the development of a bureaucracy that is not very 
responsive to the needs of the field because of the 
bureaucratic layering and the cumbersome bureaucracy that seems 
to be developing which inhibits the delivery of equipment and 
supplies from getting to Iraqi front lines.
    As you know, the 10 divisions making up the Iraqi Army are 
composed or led by--four of them are led by Shi'a, four by 
Kurds and three Sunni divisions today in the Iraqi Army.
    With regard to the Army, we have noted an impressive 
progress in ability and willingness to defend against the 
internal threats to the nation, working with police units where 
possible to bolster the police units' capability shortfalls. We 
have seen evidence of considerable tactical success on the 
ground. One thing that impressed all of us was their 
willingness to take on more combat missions as soon as 
possible. I might note that the Iraqi Army intends to grow from 
10 divisions to 13 divisions in 2008.
    I ask you to turn to page 57 of your report for the next 
slide.
    Sectarian problems in the Ministry of Defense and in the 
Iraqi Army are minor as compared to other institutions in the 
Iraqi government. The basic elements necessary to grow an Army 
are in place and functioning; and, as I said earlier, they seem 
to have an unlimited amount of volunteers ready to enlist in 
the ranks.
    There is an alarming development in terms of the existence 
of duplicate and parallel chains of command and intelligence-
gathering institutions; and we noted a much-needed requirement 
to improve in cooperation with other organizations, other 
agencies such as the Ministry of the Interior and more 
coordination required with police forces.
    The Iraqi Army cannot yet operate independently due to a 
chronic lack of logistics, supply, mobility, and national 
command and control capabilities. It cannot defend against 
external threats emanating from Syria and Iran, especially 
along the borders in the defense of its critical 
infrastructures.
    The most capable and professionally effective military 
units in Iraq are its Special Forces unit. In our judgment, 
they are as good as any in the Gulf region, although they lack 
in mobility and currently do not have enough enablers. But 
their willingness to fight and their professional capability 
and their morale is extremely impressive.
    The Navy and the Air Force remain in an early developmental 
stage. They are making satisfactory progress.
    The Commission has recommended that the Iraqi government 
consider integrating the Coast Guard and the Navy into a single 
maritime force. Iraq is a nation with a 36-mile coastline, and 
currently the Navy and the Coast Guard function independently 
and under two different ministries.
    Turning briefly to the Ministry of the Interior, this is 
judged by the Commission to be a weak ministry, despite recent 
attempts to change out senior personnel for sectarian reasons. 
Little progress has been made to date in terms of the 
efficiency and the management of this particular ministry. 
There is strong evidence of sectarian partisanship, indications 
of corruption, and it is a failing bureaucracy. Little evidence 
of willingness to cooperate with other ministries, 
inflexibility, perhaps excessive influence by countries 
flanking Iraq, and one area in our assessment where there is 
the most critical need for reform and recovery.
    If I could ask your attention to page 87 of the report, I 
will turn to the Iraqi Police Service.
    The Iraqi Police Service is comprised of about 230,000 
policemen whose salaries are provided by the central 
government, but those salaries don't always reach the local and 
regional levels, which fuels the sectarian reaction. It is 
possible for provinces to recruit policemen but only the 
central government can pay them, and you can see the obvious 
problems that a system like that will create.
    Police by local ethnically representative units seems to 
work best for the time being. They have an unlimited manpower 
pool to choose from, many volunteers seeking to be policemen. 
But the overall progress of the Iraqi police capability is 
judged to be unsatisfactory.
    The National Police is composed of 25,000 individuals. This 
is the Commission recommendation for the National Police, is to 
disband it and reorganize it in terms of makeup. It is highly 
sectarian; 85 percent of the National Police are Shi'a. It is 
very heavy-handed. It is not trusted by people of Sunni and 
Kurdish ethnicity, and there are strong indications of 
corruption within the National Police network.
    The Department of Border Enforcement numbers 37,000 
policemen. It is part of the Ministry of the Interior. It is 
weak and poorly supported by the parent ministry and unable to 
make a serious contribution against new threats rising from 
Iran and Syria.
    And, finally, the Facilities Protection Services, which 
numbers 140,000, also a part of the Ministry of the Interior, 
suffers from inattention and relatively poor standards and 
training.
    Overall conclusion with regard to our task is as follows:
    First conclusion is that the Iraqi Security Forces as a 
whole cannot yet defend the territorial integrity of Iraq. But, 
as we will point out later, this is not necessarily an alarming 
conclusion. They are able to do more in terms of combating the 
internal security threats to Iraq, and that is positive.
    Second, we have noted improvement in the internal security 
missions, such as denying the safe haven to terrorists; and 
this progress is likely to continue in the months ahead.
    Third, we judged that the Iraqi Security Forces can bring 
greater security to the provinces in the next 12 to 18 months, 
assuming a continuing rate of progress.
    And, fourth, with regard to ending sectarian violence, the 
Commission strongly feels that this has to be initiated by the 
central government in order to be effective and that U.S. and 
Coalition support will be required until independent 
operational capability to defend against the external threats 
to Iraq is achieved. Size and mission of Coalition military 
forces could possibly be altered in the near future, given this 
favorable development.
    In addition to our specific mandate, the Commission desires 
to add some interpretive context to our findings reference the 
capabilities of the Iraqi Security Forces. Our goal here is 
simply to be helpful in arriving at a way ahead that will 
enable success in this critical mission.
    The strategic consequences of failure along national, 
regional, and global lines are significant; and the strategic 
consequences of success are equally significant as well.
    To reiterate, the Commission's overall assessment of the 
Iraqi Security Forces is that there has been measurable, though 
uneven, progress. The impact of the surge has had a tactical 
success for both Iraqi and Coalition forces in the Baghdad 
region; and I would call your attention to page 34, which will 
depict a slide, a chart on Baghdad violence levels as a result 
of the tactical surge of both Iraqi and Coalition forces.
    The Iraqi surge began in January of 2007, and the Coalition 
surge became operationally effective in May of 2007. And as you 
can see by looking at the charts, some appreciable and 
measurable changes to the security environment is what has 
resulted. This has also been accompanied by a sudden and some 
say stunning loss of support for al Qaeda by the population and 
tribal leaders throughout Anbar Province.
    Anbar Province was a year ago the most violent province in 
Iraq. It constitutes about a third of the territorial land mass 
of the country. And as a result of the savagery and viciousness 
of al Qaeda's practices against local Iraqis in that area, 
there has been a dramatic turnaround in terms of support for 
the Coalition. It is estimated that roughly 35- to 40,000 
fighters who were fighting the Coalition a year ago are now 
fighting with the Coalition against Iraq just in that province.
    If you would turn to page 29 of the report, you will see a 
chart that speaks to the Anbar attacks and the sudden decline 
in the numbers of those attacks over a relatively short period 
of time.
    The third element that has been positive has been the 
sudden rise in the capacity of the day-to-day fighting 
capabilities of the Iraqi Army. If you would turn to page 38, 
you will see a chart that shows a fairly dramatic increase in 
the number of casualties that have been suffered by the new 
Iraqi Army, proof positive that they are doing more; and they 
have shown themselves to be an Army that is increasingly 
willing to fight and take on the nation's problems.
    There has been some limited but important police success in 
local ethnic neighborhoods in Anbar Province, which materially 
contributes to the stability and security of the region.
    The positive trends we saw signal the possibility of a 
strategic shift for our Coalition forces commencing in 2008 or 
earlier if the commanders judge it prudent, as is mentioned in 
our report. Operational attention will be increasingly required 
in defense of the border regions and on defense of critical 
infrastructures of the nation.
    This gradual shift of Coalition to what we would call a 
strategic overwatch position, accompanied by appropriate force 
adjustments, are now possible to envision. This is a very 
recent development. The gradual transfer of combat operations 
against internal threats to the Iraqi Security Forces is not 
only possible, it is happening.
    More attention is needed to offset the major 
destabilization efforts coming from Iran and Syria.
    We propose that the image of the Coalition should be 
adjusted. We appear to be still excessively an occupying force 
in Iraq and that this adjustment should accompany any strategic 
shift of forces and adjustments to their mission set. This is 
an important element of our strategic messaging on how we 
present ourselves to the Iraqi public and to our own public as 
well. The force footprint adjusted for expeditionary capability 
should combat the permanent force image of today's presence, 
which will make our eventual departure all the more easier.
    It is very important to establish an Iraqi-Coalition 
Transition Headquarters, which is one of our major 
recommendations. We find absent a location where visitors can 
be briefed in the aggregate sense of the broad nature of 
transition; and we believe that an Iraqi-Coalition Transition 
Headquarters, which would be a single focal point for all 
transition efforts--military, political, economic, legal, the 
whole broad spectrum that makes up the world of transition--
should be visible and should track the progress not only in the 
past and the present but also have a clear plan which shows our 
goals for future transition.
    The committee also feels strongly that all of Iraq's 
provinces should be transferred immediately to the Iraqi 
control as a matter of policy. If you would look at your chart 
on page 40 of the report, you will see that there are seven--
currently seven provinces that have been transferred to 
provincial Iraqi control.
    We do not believe there is a single metric that adequately 
covers the requirements for transfer to Iraqi control. We have 
a sovereign government in Iraq, we have 18 provinces, and we 
see no reason why more responsibility shouldn't be given to 
that government for political control of their provinces. We 
recognize that in so doing that we would supplement this 
transfer with the mentoring and the assistance which would 
enable success.
    To further combat our image as occupiers, the Commission 
believes that we should consider engaging in a status of forces 
agreement as a visible means of reinforcing the sovereignty of 
Iraq. Consistent with such an agreement, this would be 
consistent with other agreements that we have in many nations 
around the world. And we believe that our bases in Iraq should 
fly both the U.S. and Iraqi flags.
    Last, Mr. Chairman, I would close by signaling that we have 
uncovered--it was brought to our attention that there was a 
large problem with regard to our own national capacity to 
generate equipment for the Iraqi Army through the foreign 
military sales system, and this has been identified by U.S. 
commanders as a major problem which is inhibiting the 
development and the growth of the Iraqi Security Forces.
    Mr. Chairman, Mr. Hunter, ladies and gentlemen of the 
committee, thank you for listening to these opening comments. 
My colleagues and I are ready and anxious to respond to any 
questions you might have with regard to our work.
    [The Jones report is retained in the Committee files and 
can be viewed upon request.]
    The Chairman. General, thank you so much for your excellent 
work and the work of your Commission and for your testimony.
    According to the sheet that was given us, there are a total 
of 359,700 Iraqi Security Forces trained and equipped. Is that 
correct?
    General Jones. These numbers are difficult. In my prepared 
remarks I mentioned that the size of the Army is about 152,000. 
We are pretty confident of that number. When you total up all 
of the elements that make up the units under the Ministry of 
Defense that could be classified as police forces, we come up 
with about 340,000. So that would be--the number would be 
slightly more than the number that you quoted, Mr. Chairman, 
but it kind of depends on what units we are talking about.
    The Chairman. The issue really being discussed in our 
country is when do we redeploy the American troops and pass the 
mission or the baton over to the Iraqi Security Forces. On page 
128 of your report, the last part of the second paragraph 
thereof, first full paragraph thereof, states that, ``We 
recommend that careful consideration of the size of our 
national footprint in Iraq be reconsidered with regard to the 
efficiency, necessity, and its cost. Significant reductions, 
consolidations, and realignments would appear to be possible 
and prudent.'' Is that correct?
    General Jones. That is correct, sir.
    The Chairman. General, would you please explain those two 
sentences to us? Should I read them to you again?
    General Jones. No, sir, that is not necessary.
    The Chairman. Would you please?
    General Jones. Thank you, sir. I will make a general 
comment, and I will ask my two colleagues to my right and left, 
General Joulwan----
    The Chairman. That would certainly be fine if each would 
make reference to it. Thank you.
    General Jones. Thank you.
    Mr. Chairman, it is the belief that as a result of a number 
of encouraging factors in terms of the operations on the 
ground, the evolution, the success, the statistical impact that 
the surge has had--by the way, I would like to emphasize that 
the surge is also an Iraqi surge--the fact that Iraq's 10 
divisions are operating and increasingly able to take on more 
and more of the day-to-day combat missions against the internal 
threats of Iraq, the fact that in Anbar Province we had a 
remarkable turnaround with regard to popular support for al 
Qaeda, and the fact that the Coalition is successfully 
mentoring and training the Iraqi Security Forces to the point 
that we will have three more Iraqi divisions in the very near 
future means that we can consider taking a look at our 
footprint, taking a look at how many people we have in Iraq, 
how many bases we have, how many locations we have, and begin 
to think about ways in which we can realign the force, retask 
the force, and even remission it so that we can gradually 
adjust our footprint.
    The Chairman. Does that mean reduce?
    General Jones. Sir?
    The Chairman. Does that mean reduce our force?
    General Jones. It means finding efficiencies, and it 
means--yes, it means making a candid assessment of who is over 
there, who absolutely needs to be there critically, and making 
sure we are operating at peak efficiency and don't have 
excessive capacity simply over there because it is their time 
to go.
    Let me ask General Joulwan for his comments.
    General Joulwan. Mr. Chairman, I would just add that at 
least what we saw is that what we have had on the ground is 
what I would call tactical success, as was mentioned, with the 
surge. That is a tactic, not a strategy. The larger strategy is 
what we are trying to deal with, how to really reinforce that 
success or build on that success. I think part of that is to 
reduce the dependency on the U.S. and Coalition forces, and we 
see a possibility to do that.
    In the Army, for example, I believe significant strides are 
being made to develop professionalism, to develop combat 
readiness of the forces. They are not totally there yet, but we 
can see a shift to an Iraqi lead, not a U.S. Coalition lead at 
some point in the future. And I think that can start very soon, 
maybe as soon as next year, as we say in the report; and that 
will include lesser Coalition and U.S. forces.
    The Chairman. Do you think, General Joulwan, that they may 
be using the presence of American troops as a crutch to not 
work at it better and become more independent?

          STATEMENT OF GEN. GEORGE JOULWAN, (RETIRED)

    General Joulwan. My sensing, particularly of the Iraqi Army 
and the Special Forces, we dug pretty deep. I had some senior 
non-commissioned officers with us, and I think there is not 
only progress but significant potential as we do it. I don't 
think they are using it as a crutch. Very impressive to me, 
when I talked to Iraqi division commanders, that they say we 
are not Sunni, Shi'a or Kurd, we are Iraqi. And I think you can 
build on that within the Army. They are taking the fight to al 
Qaeda. They are developing intelligence in some of the villages 
that we visited.
    So the issue is, how do we really build on this 
opportunity? And that is the point we are trying to make.
    The Chairman. Who else wished to comment, General?
    General Jones. Chief.

              STATEMENT OF CHIEF CHARLES H. RAMSEY

    Chief Ramsey. Mr. Chairman, I think that the police will 
play a very critical role overall in our ability in the future 
to be able to lessen the footprint of the U.S. military and 
Coalition forces in Iraq.
    Right now, the police are not able to play any real, 
meaningful role in helping to bring about security and 
stability in the various provinces, with the exception of the 
Kurdish region. Those provinces, the police and the way in 
which they function is quite different from what you see in 
other parts of Iraq. The al-Anbar Province is showing a great 
deal of promise I think. We were all very impressed with the 
progress that they have made.
    But the police overall are under-equipped to take on the 
challenges posed by insurgents and militia. They do not have 
the vehicles. They don't have the overall equipment, the 
training. The training that we saw is, for the most part, very 
good, but there is not enough of it. There aren't enough police 
advisers there working with Iraqi trainers to really quickly 
bring about the kind of training needed for them to assume that 
responsibility. Also, the security concerns, they can't get to 
some of the training sites on a consistent basis to be able to 
handle that.
    Most of the problems, the vast majority of the problems 
that we saw with the police were directly linked to the 
dysfunction within the Ministry of the Interior (MOI) and their 
inability to be able to provide the resources necessary for the 
police to be effective. I think once the problems in the MOI 
are straightened out, and I speak for my syndicate members as 
well----
    The Chairman. MOI is Ministry of Interior.
    Chief Ramsey. Ministry of Interior, yes, sir--you will see 
rapid progress on the part of the Iraqi Police Service. That is 
the 230,000 members of that particular service. That is not the 
National Police, where we have a totally different view of 
their effectiveness and their future.
    The Chairman. Mr. Hamre.
    Dr. Hamre. I share the views of my colleagues.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman; and, again, thanks for 
having this hearing. And, gentlemen, thank you for your 
extraordinary service in putting together this analysis. I am 
really impressed with the breadth of the expertise that you 
have assembled here.
    Let me make a fast question so we can get down the line, 
because I know we have got a lot of members who have lots of 
questions. Could you simply paint a picture, any of you on the 
witness table?
    Because we see--our image of the forces is largely limited 
to slides that have numbers on them, that grade them whether 
you are fully ready, fully capable, and there is many factors 
that go into those particular numbers that are difficult to 
conceptualize. But if members of the committee were to look at 
the typical Iraqi infantry company--you gentlemen have a lot of 
battlefield expertise on you--what would you see? Typical 
company in size and the type of equipment they would have and 
the type of operation that they would be capable of.
    General Joulwan. I would say at least what we looked at, 
and we went down to Patrol Base Whiskey One, which was an 
outpost with a captain, a U.S. and Iraqi captain, and it was 
very professional. They were doing patrolling. They were able 
to conduct patrols and fire support.
    What they need from us primarily are the enablers. They 
don't have the enablers that we have. That is in intelligence, 
fire support, air. Those sorts of things they lack. But they 
are getting better tactically at what they are able to do. They 
are developing their own intelligence, which I thought was 
extremely interesting, particularly in the north around Mosul. 
This division commander was developing his own intelligence 
network, and he was conducting his own independent operations.
    So I don't want to get rose-colored glasses here, but there 
appears to be trends here that are very positive. And they are 
trying to build and train an Army at war. Remember, we 
dismantled this Army, and they are trying to rebuild it. And so 
there is some--there is progress here. We just need to build on 
it.
    Mr. Hunter. Okay. Thank you, Mr. Chairman.
    The Chairman. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank all of you gentlemen for your continuing 
service to our Nation.
    General Jones, and I want to open this up to the panel, I 
found it very interesting your observations about the need to 
put the Iraqis in charge. The one word that I didn't hear, that 
I have not had the time to read your report, mentioned, was the 
word ``trust''. My casual observation visiting the Water Palace 
is that, although we talk of it as a Coalition force, every 
face I saw in there was an American. I know that there are 
operations taking place at the lower levels on a sharing of 
responsibility with the Iraqis, but at the top it seems to be 
all American decision-making.
    Now I realize there have been instances where the hotlines 
to report Improvised Explosive Device (IED's), where the people 
who were actually taking the information passed it on to the 
enemy, the people who gave us information ended up paying with 
their lives. But when it comes to the decision-making of 
turning all the provinces over to the Iraqis of a shared 
responsibility it comes back to the word trust.
    I am also impressed at the very large number of general 
officers who have sons and daughters who are serving in Iraq 
right now. I don't know if that is the case for you or General 
Joulwan, but knowing some of the other generals, I know that 
that is happening. Since you are no longer in uniform, would 
you trust those sons and daughters, their safety, given what 
has happened in some other instances, with in effect having a 
substantial Iraqi presence in the Water Palace at the 
headquarters?
    General Jones. Sir, I do have a son that has had two tours 
in Iraq as a Marine infantry officer, and we did address the 
trust issue in the units that we visited. And I would like to 
think and, as a matter of fact, I am reasonably sure that this 
Commission drilled down very deeply into the heart and soul of 
the emerging Iraqi Army.
    We have two sergeants major here who we tasked specifically 
to assess will to fight, will to accept responsibility, morale. 
And although I don't want to make it a blanket statement, the 
answers we got to our questions from the embedded trainers, our 
own people who live with these emerging Iraqi units, is that 
the trust is growing and it is improving. But that trust is 
limited more to the Iraqi Army than it is to the police forces. 
Hopefully, we will get there with the police forces as well. 
But I think that the Commission feels that they are moving in 
the right direction.
    And in some of the areas of Baghdad in particular, where 
the surge was, both the Iraqi surge and the Coalition surge 
coalesced into joint operations. That trust has grown 
considerably in the last six months.
    Mr. Taylor. Is there a potential downside--and, again, this 
is a question. I don't know the answer. Is there a potential 
downside to turning control of all of the provinces back in 
that you would then be in a situation where you have to get 
permission to launch a particular operation?
    General Jones. I think when we talk about transferring the 
provinces to provincial Iraqi control we are talking about a 
political event as opposed to a security event. It doesn't mean 
that they become absolutely independent.
    But the problem we had with our system, which has so far 
resulted in seven provinces being transferred, is that there is 
no single metric that you can apply to the southern part of 
Iraq and to the northern part of Iraq, where the conditions are 
so totally different, particularly where it relates to 
security. So our belief is that we are wasting--wasting is a 
bad word perhaps--but there is a lot of effort going on to try 
to define what it means and what are the standards necessary to 
give this control back to the provinces when we believe, 
frankly, that it is an academic exercise, and we should bolster 
the sovereignty of Iraq by giving them control of their own 
provinces.
    We didn't do it in Afghanistan. President Karzai always had 
control of his--always had responsibility for his provinces at 
the political level.
    It will not inhibit military operations, nor will it 
inhibit the task of the Coalition. The range of effort that is 
needed is so different in each of the provinces that trying to 
come up with a template that says, okay, on this date we can 
transfer this province to provincial control is, frankly, 
somewhat meaningless. So as a way to put more responsibility on 
the willing shoulders of the government, and the government is 
very willing to accept this, instead of prolonging the agony of 
handing over a province every two or three months, our 
recommendation is simply do it as a matter of policy and 
consider the requirements of each province in terms of its 
security elements, because we are going to have to do that 
anyway.
    Mr. Taylor. Thank you again, General.
    The Chairman. Thank you, Mr. Taylor.
    Mr. Saxton from New Jersey.
    Mr. Saxton. Thank you, Mr. Chairman; and let me add my 
personal thanks to you for the great effort that you have made 
in carrying out this project. I am sure while I don't have to. 
I can say thanks for each of the members of the committee who 
have been watching your great work.
    In your section on concluding observations, there is a 
paragraph that I find very interesting and informative. It 
says--and I will read it just for context--the surge, if 
successful, will play an important role in enabling the 
evolution of our strategy. There are signs of encouraging 
tactical successes in the Baghdad capital region, which remains 
the epicenter of enemy focus and of their competing strategy. 
Unable to achieve conventional military victory, the opposing 
forces must rely on spectacular bombing attacks on innocent 
Iraqi citizens as well as Iraqi Security Forces and Coalition 
forces. As the international media is mostly Baghdad-based, 
successful attacks receive disproportionate coverage relative 
to some very real progress achieved in other areas of the 
country, such as al-Anbar Province. The result, unfortunately, 
is enemy momentum in the battle of strategic messaging, despite 
the growing popular rejection of terrorist ideology in the 
region. People's outrage at al Qaeda savagery and their 
realization that it is a movement not of liberation but of 
occupation has helped transform this province from being the 
most violent to being one of the least violent in Iraq. Coupled 
with the emerging capabilities of the Iraqi Security Forces and 
the promise of the Coalition's clear hold-and-build tactic, 
there are some encouraging indications of a positive trend in 
the region.
    I guess I have a three-part question. Number one, would you 
just expand on the positive, if you will, parts of this 
paragraph of the successes that we have seen in the Baghdad 
region? Two, give us your opinions as to how we can enhance it 
in this region and spread it to other regions, which is 
obviously the goal that we would all like to see. And, number 
three, how do we deal with the leverage that al Qaeda and other 
wrongdoers gain by using the media the way they do and the way 
you point out in this paragraph?
    I just throw that open, General, to----
    General Jones. Thank you. Well, I think, hopefully, the 
words speak for themselves in terms of the success.
    I think success is due to three major things. One is the 
success of the surge in Baghdad and its districts; two is the 
reversal of al Qaeda's fortunes in al Anbar; and, three, the 
very impressive capabilities that the Iraqi Army is 
demonstrating as a result of the training and the mentoring and 
the equipping that has been going on. Those three things have 
together formed the basis of a somewhat better assessment than 
we would have had sitting here just a year ago.
    Whether the Anbar success can be exported to other 
countries remains--other provinces remains to be seen, though 
there are signs that in Diyala and other areas that popular 
support for al Qaeda is diminishing.
    I think it might be worth underscoring that casualties 
caused by al Qaeda attacks only constitute about 15 percent of 
the total casualties that occur in Iraq. But, nonetheless, we 
are watching closely. I think the authorities are watching 
closely to see if this is exportable to other regions.
    As far as the strategic messaging, this is something that 
we struggled with for a long time both in Afghanistan and Iraq, 
where the ability of the enemy to reach their Web sites is 
very, very quick. In Afghanistan, I think it was about 60 
minutes from the time of an incident to the time it was posted 
and out in the Arab world. Whereas the best the alliance could 
do is maybe a day or two.
    So the strategic part of this conflict is very interesting, 
because they know that the spectacular attack and being able to 
lob three or four mortar rounds into the international zone is 
going to cause a headline. But the truth of the matter is, I 
believe, that, at least in terms of al Qaeda for certain, the 
momentum is slipping and turning in favor of the Coalition and 
the trend of the Iraqi Security Forces.
    Mr. Taylor [presiding]. Thank you, Mr. Saxton.
    The Chair now recognizes Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman; and, General Jones and 
members of the Commission, thank you for your work and for your 
service.
    In your report you cite that the Ministry of Interior has 
been described as--and this is a quote--an 11-story powder keg 
of factions that is plagued by battles for influence among 
political parties, religious groups, the existing government, 
tribes, and families. I was wondering what is your assessment 
of the level of sectarian militia infiltration within each of 
the segments of the security service, the military, the 
National Police, the Iraqi Police Service, the border service, 
and even, according to reports, the Facilities Protection 
Services.
    General Jones. If I could--generally, I would just simply 
say that it is much better in the Ministry of Defense and the 
Iraqi Army, much worse in the Ministry of the Interior and the 
police forces.
    But let me ask my colleagues, General Joulwan and Chief 
Ramsey, to give you a little bit more on that.
    General Joulwan. Go ahead, Chief.
    Chief Ramsey. It is very difficult, sir, to give a precise 
number as it relates to the police. However, from our visit and 
interviews that we conducted, it is clear that there has been 
infiltration of militia insurgents and criminals in the various 
police forces.
    I will take the Iraqi Police Service to begin with. We 
estimate there are about 230,000 members of the Iraqi Police 
Service, about 164,000 have been trained. The gap exists 
because many people are being hired at the provincial level and 
aren't necessarily being approved at the Ministry of Interior 
level and you have got a lot of people that are untrained and 
not on the books, if you will.
    There is a great deal of concern, and even though it is 
getting better, that early on there was very little vetting 
that was taking place. That is changing. They are using 
biometrics now, retinal scans, fingerprints, things of that 
nature. But there is no real database to bounce this off of yet 
to the point where you can feel comfortable saying we have 
really screened this individual. So they are still kind of 
relying on local sheiks and others to vouch for an individual 
to make sure that they are not part of some kind of militia 
organization.
    The National Police is viewed as being highly sectarian. It 
is 85 percent Shi'a, 13 percent Sunni. They have been accused 
of having death squads. In fact, last October, an entire 
brigade was disbanded and the officers arrested because of the 
kidnapping of 26 Sunnis and the murder of seven of those 
people. So that is your more problematic unit in the police 
service.
    The Facilities Protective Service, I don't think anyone has 
a real handle on that. They are highly sectarian. Their loyalty 
is to various individual ministers, tribal leaders and the 
like. We aren't aware of any formal training that they have 
received. So that is another group that is problematic, and we 
estimate there could be as many as 145,000 of those 
individuals. So it is a problem.
    There needs to be a standard process that is in place for 
the vetting of these officers. There are a lot of--and balance, 
diversity.
    One of the things that we have found, though, that has 
really been positive, in using al Anbar as another example once 
again, where the local sheiks are actively out recruiting and 
trying to assist getting young men to join the police, and 
basically they are from the same community that they are 
policing.
    So a lot of the sectarian issues have been eliminated or 
certainly greatly reduced in that particular province because 
of that. And we believe that at this point in the evolution of 
Iraq, that having police from the community police their own 
communities is probably a highly effective way of doing it.
    General Joulwan. Just a quick point on the Army, and what 
we found in terms of infiltration into the Army units. I would 
say that there is such a--I consider it a bond between the 
mentors, our troops that are mentoring their Army units. I 
think probably some of it is there, but I think it is waning, 
it is minimal.
    The issue of corruption is one--they are so terrified of 
corruption, I am talking about the Iraqis that have to sign I 
don't know how many pieces of paper. And that is part of the 
problem in having to requisition things, because they don't 
want to be accused of corruption.
    So minimum, I think, in terms of in the Army units of 
infiltration--and it goes to the issue of trust again that we 
talked about. I asked very directly to the Americans there, do 
you trust the Iraqi units, and I got a very positive answer 
coming back. So I think this confidence is being built. And I 
think that will go a long way to preventing or at least 
minimizing the infiltration taking place, at least in the Army 
units.
    Mr. Reyes. I would ask Dr. Hamre to make a comment.

                  STATEMENT OF HON. JOHN HAMRE

    Dr. Hamre. Mr. Reyes, there is a structural dimension to 
this militia control which is very important to understand. I 
hope the committee understands. When the government was set up, 
we probably helped set it up this way, the ability to hire cops 
is at the provincial level, but the budget to pay them is at 
the national level. And that budget is controlled by the 
Minister of Interior, which is controlled by the Shi'a. And you 
have got a battle royal going on controlling resources.
    Over half of the budget of the Minister of interior was 
never distributed last year to their own people. I mean, they 
are playing tug of war, sectarian tug of war, because of this 
structural divide. This is the single greatest problem we are 
facing. The weakness of the police is directly attributable to 
the weakness of the Minister of the Interior and the way in 
which to become a sectarian enclave.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Reyes.
    The Chair recognizes Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, let me add my words of deep appreciation and 
admiration for the team you put together. In my 15 years I 
can't remember a more impressive nor would I say more 
appropriate assemblage of individuals. And we are all deeply 
indebted for your effort.
    I have to tell you that having read several of the media 
reports this morning as to what your report said, and now 
having heard you say it, I am wondering if maybe there aren't 
some imposters out there. Quite a difference, and not all of it 
to the positive. I think in some areas you have laid out a very 
realistic and very stark picture.
    I just got back from, along with one of my colleagues, from 
my eighth trip to Iraq and had an opportunity to go out into 
al-Anbar and walked around Fallujah a bit. Obviously, as I 
think both your reports and your comments underscore, the 
surge, whether it is there on the streets of Baghdad and now 
transferred somewhat to Diyala Province and I would hope other 
places, has been successful.
    In the context of your reduction of the footprint, which I 
think bears careful consideration, are you suggesting that the 
surge is done, and we should now begin a new strategy and 
tactic; or do you think, as I seemed to learn or I thought I 
heard when I was in Fallujah, for the moment the surge as a 
tactic--and General Joulwan described it as that, and I think 
he is absolutely on point. You will be relieved to know I think 
that, General--but as a tactic should continue for some time? 
Are there more successes to be realized from that?
    General Jones. At some point the authorities will declare 
that the surge has done what it is supposed to do, and we think 
that that day is coming. It is not for us to say when that is. 
But I think that when that happens, and with the projected rate 
of expansion of the Iraqi Army, hopefully more progress along 
the police lines, and if the phenomenon in al-Anbar does, in 
fact, migrate over to other areas, that will give the 
authorities an opportunity to reassess how best to use the 
forces that they have. And I think that day is coming sooner 
rather than later.
    Mr. McHugh. Of course, we have an operational reality, a 
mathematical reality of being able to sustain the rotations as 
well. But your report is not intended to suggest the surge is 
done today, September 7?
    General Jones. No. I think that is for the commanders on 
the ground to determine.
    Mr. McHugh. As to the footprint and the reduction, and as I 
said in my opening comments, I think there is meat there that 
we need to consider very carefully. Where might you suggest in 
a more specific framework where those reductions, where that 
changing footprint might occur; whereabouts; which troops; what 
would the number be; what would you see? And let us say we are 
at 160 now, give or take. Would you see us coming down to 50, 
80, 100, 120, any idea? Can you give us some guidance on that?
    General Jones. Without trying to be evasive, that is fairly 
far beyond our mandate. And we did not, we just did not have 
time to get to that point of specificity, other than to say 
that because of how we assess the rate of progress in the Iraqi 
Security Forces, that there are some implications that one 
could reasonably make about what that means. And that is why we 
added this 11th chapter, which was to try to be helpful and 
interpretive without going too far to say this means that we 
could bring home X number of troops at a certain date. But we 
did use the words carefully to say we do think that because of 
these positive trends, in terms of the increasing ability of 
Iraqis to handle the internal problems of a country, internal 
security problems, without a corresponding ability to do both 
the external and the internal problems, which will come in 
time, that it is quite possible that we could put more of our 
forces, more of the coalition forces, their technical 
capabilities and their focus on combatting and making much more 
secure the territorial integrity of the nation, but away from 
the cities, as the Iraqis handle their own problems themselves. 
And that to us is encouraging. What that means specifically in 
numbers is beyond our capacity to assess.
    Mr. McHugh. I see my time expired. Thank you again.
    Mr. Taylor. The Chair recognizes Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    General Jones, did you have any Arkansans on that 
commission? I always like to recognize Retired Sergent Major 
McMichael. We are very proud of him and his Arkansas heritage.
    I want to pick up a little bit where Mr. McHugh was. As I 
read your report about the Iraqi National Army side of things, 
I thought it was reasonably positive, things are moving the 
right way, logistical problems, close air support challenges in 
the future. But that was different than sort of the press 
headlines that says, Iraqi Army Unable to Take Over Within a 
Year. I read your report. I think you used the word 
``independently.'' Is that kind of the key distinction? You 
don't have any expectation that tomorrow or the next day that 
they are somehow going to be able to have their supply lines 
and logistics and close air support, but that they can do a lot 
of fighting and are already? Is that how you would distinguish 
between the press headlines we have been seeing?
    General Jones. I think that is correct. The way we 
characterize it is they can do more internally to face the 
troubles that they are facing. But to try to build an army--
first of all, having defeated the Army and then having 
dismembered it and then trying to reassemble it and have it to 
be able to be ready to take on the internal threats of the 
insurgencies and the external threats posed by the neighboring 
countries, that is a little bit of a stretch in the period of 
time that they have had. There is no question in my mind that 
they are on the right glide slope to get there, and because of 
the increased capacity, it is going to give us more capability 
to do more on the external side while they take care more the 
internal problems.
    Dr. Snyder. How I want to spend the remaining time I have 
is I want to read these comments from what you call your 
concluding thoughts on page 129 and 130. We have a big debate 
going on in this country and a big debate going on in this 
Congress, and you all are very much aware of that, and your 
report is being reviewed in that context. But I want to read 
what you all say, which you all signed off on unanimously, and 
just ask our three former military people here to comment on 
it.
    And this is what your report said: Concluding thoughts. 
While much remains to be done before success can be confidently 
declared, the strategic consequences of failure or even 
perceived failure for the United States and the coalition are 
enormous. We approach a truly strategic moment in this still 
young century. Iraq's regional geostrategic position, the 
balance of power in the Middle East, the economic stability 
made possible by the flow of energy in many parts of the world, 
and the ability to defeat and contain terrorism where it is 
most manifest are issues that do not lend themselves to easier, 
quick solutions. How we respond to them, however, could well 
define our Nation in the eyes of the world for years to come. 
And that is the end of your-all's unanimous opinion.
    Could we start with Dr. Hamre, General Joulwan and then 
General Jones? What does that mean to you as we all--we should 
have had alumni shirts for the three of you. You all testified 
so many times here when you were in uniform.
    Dr. Hamre, would you go start, and then General Joulwan and 
then General Jones?
    Dr. Hamre. Sir, here I will use my own personal vocabulary, 
so it differs perhaps from how my colleagues would say it. But 
we have strategic interests that are larger than just Iraq: our 
continued influence and presence in the region, the ability to 
get continued access to energy resources, providing a 
counterweight to Iran. We have large strategic interests. Every 
one of those interests would be seriously diminished if we had 
to crawl out of Iraq or run out of Iraq. That is what it boils 
down to. We have to be able to walk out, not crawl out of Iraq.
    General Jones. General Joulwan, I will defer to General 
Bright on this issue because he spent a lot of time studying 
it, and I would like to give him the microphone.
    General Bright. This is the crux of the whole issue. This 
Commission did not limit what it knows about Iraq to 20 days or 
so that we spent there. Now, some of us have been in and out of 
Iraq a great deal over the last several years. I personally had 
six visits, and many visits to other countries in the region, 
the United Arab Emirates (UAE), Qatar, Kuwait, Jordan, Syria. I 
have yet to find anyone who wants us to stay forever. But I 
haven't yet found anyone that wants us to leave anytime soon. 
They are worried about containing this conflict within the 
borders of Iraq, and if we leave, most, if not all, believe 
that it raises the risk of spillover of sectarian conflict 
throughout the entire region.
    How best do we dampen that risk is the question that all of 
us wrestled with. It is not in our charter precisely. But the 
stakes are so high here that whatever we do, we must have as 
our objective controlling those risks, and that means keeping 
as much support there as long as we believe it is necessary to 
bolster the Iraqis to do the jobs themselves.
    So you focused, sir, on the key question of all, and that 
is what are the--this is not May of 1975. We can't come home 
and have no effect on either our own country or the rest of the 
world. All of the world is dependent upon stability and a 
continuation of access to energy in that region, the most 
important question of all.
    Mr. Taylor. The Chair recognizes Mr. Wilson.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    I would like to thank all of you and each person who 
participated on the Commission. In looking at the report and 
hearing the comments that you are making, I need to tell you 
that this is so refreshing. Instead of recrimination and 
pointing back and saying why things weren't done, or 
accusations, or put-downs of anyone, the report truly does 
reflect where we are.
    And then I greatly appreciate the suggestions on how to 
improve, whether it be in recruiting, reorganization, reform, 
logistics. It really is a very, very helpful report. And we all 
need this, and the American people need this. And so you have 
really made a great contribution.
    In my visits to Iraq, I have been there seven times, I 
visited in particular from the beginning with the efforts to 
see the training of the police. And so it is a real 
disappointment to me, and I was always concerned whether they 
were vetted initially as to their association with the prior 
regime, and then, of course, as things transpired with the 
circumstance of the infiltration by sectarian militias. In the 
media I reflect the view of Congressman McHugh. I had really 
not anticipated what I am hearing now. But the media headlines 
that I heard indicated that the police should just be disbanded 
and start over again. Is there some way that they can be 
reformed? And this could be Chief Ramsey or whoever.
    Chief Ramsey. Yes, sir, Congressman, and thank you for that 
question, because there is a lot of misinformation from some of 
the media reports that I have read as well.
    We are not proposing to disband all police. Again, the 
Iraqi Police Services comprise 230,000 individuals. A comment 
was made as it relates to the national police, which is 25,000 
members. And what we are proposing is that their mission be 
redefined. We believe that there are functions that are police-
related functions that are necessary that may not be able to be 
supported at the provincial level, such as bomb squads, SWAT 
teams, river patrol, air support, teams that can operate in a 
hazardous environment, taking a portion of that 25,000, roughly 
about 6,000, perhaps a few more, and having them focus on those 
areas that are greatly needed. Urban search and rescue is 
another area that we included in that. The remainder that are 
vetted, obviously, some would be sent over to the military, 
some to the Iraqi Police Service.
    So we are not saying just disband and let them go wherever 
they go. There is a need to redefine the mission, because as it 
stands right now, they lack the kind of credibility and support 
and trust, if you will, across Iraq to be an effective force. 
And we think that even though there is a training effort going 
on now, a four-week course that focuses a lot on the rule of 
law and democratic policing and things like that, so much has 
happened, it is just difficult to overcome. A four-week course 
is not going to change the basic culture and history that they 
are trying to overcome.
    So our feeling is that you simply redefine their mission, 
which has never really been clear. If you look at the national 
police, it is not clear whether or not they are a light 
infantry force, or are they a police force. So that needs to be 
addressed. And that is really what we are looking at when we 
are talking about that particular issue.
    Mr. Wilson. And, Chief, when I was there, I was very 
impressed by the instructors from 20 different countries that 
were helping promote community policing, something that you do 
in your professional life. And I am glad to hear that there is 
hope.
    The equipment, I notice the referencing, and this has 
always concerned me, that we have persons who are not as well 
equipped as the enemy. And so I really appreciate the very 
constructive comments. Thank you all for what you have done for 
our country.
    I yield the balance of my time.
    Chief Ramsey. One thing to add real quickly, Congressman, 
and that is the fact that we have a very, very committed group 
of trainers. There just aren't enough of them, and they need to 
be increased in size so that they can cover the entire country 
and provide the kind of support and training that is needed.
    Mr. Wilson. Thank you very much.
    Mr. Taylor. Thank you, Mr. Wilson.
    The Chair recognizes Mrs. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman, General Jones and 
members of the Commission. Thank you very much for your decades 
of service to this country and coming back at such a very 
important and pivotal time when we are launching on a 
significant debate about the future of our engagement in Iraq 
and exactly how we are going to proceed.
    This Commission report couldn't be better drafted by better 
people for a better time. It is not only serious and sober and 
balanced and specific, but it provides, I think, the kind of 
sense of clarity that we have been, I think, yearning for for a 
very, very long time. So I really can't thank you enough.
    I got back last week from my fourth trip to Iraq, and I 
looked at many different pieces of it and was deeply concerned 
about most of what I saw. I kind of had a shorthand for what I 
thought we should do. I thought we should get our military 
leadership out of the Saddam palaces, close the Green Zone, 
stop Green Zone fog, as I call it, and have a status of forces 
agreement (SOFA) agreement. And I am very thrilled that on two 
pages of this report, which are absolutely jam-packed with not 
only good facts, but very salient analysis that I think anybody 
can understand, on pages 128 and 129 you recommend those three 
things. So I guess I can go home and leave you all in charge.
    But I think that the sensitivity for a long time about 
having a SOFA agreement has been mystifying to me. The idea 
that this sovereign government that has been in place now for 
18 months didn't have the ability to do what everybody else 
has, which is to say that we are a sovereign government, and 
that these forces are here by our invitation, and they are 
doing a mission, yet to be defined perhaps, and that we have 
the ability to say time to go, or this is how you are going to 
do it, or this is how you are going to engage, I thought that 
if we had done that much earlier, we would be not sitting in 
this position of having people thinking that we are not only 
occupiers, but that the government is feckless and can't 
accomplish things. When I was in Iraq, I asked about it, and 
apparently there is an effort to get the Government of Iraq and 
the United States to begin to negotiate a SOFA-like agreement.
    But, Dr. Hamre, I think your comments, and many others, and 
General Jones' certainly, about our strategic interests, $330 
million a day, 3,700 dead, 30,000 injured, and our military 
stretched to a point where many of us don't believe that our 
ground forces can engage in any other contingency at any other 
time soon, that is a set of strategic interests for the 
American people. We also have obviously the area strategic 
interests of, as you say, walking, not crawling out of Iraq.
    There has got to be a sweet spot someplace where we can 
find how to balance the ability for us to begin to bring our 
troops home, to begin to reengage here, not spend $330 million 
a day, all of that, and still not have Iraq be a huge 
humanitarian crisis explode in the region that is already 
volatile. Any sense for what you think that might be? I know it 
is outside your mission, but I think that that is the question 
that we need to be asking.
    Dr. Hamre. It is outside of our mission, but as the 
Commission said, our presence and our task is dramatically 
complicated if we don't have a political reconciliation. Absent 
political reconciliation in Baghdad, it is very hard to see how 
this ends well. So the priority really has to be on getting 
that working. And the focus really has to be on the police and 
the Ministry of Interior.
    I think all of us were positively impressed at how things 
are finally moving with the Army. The institution to build a 
stronger Army is in place, and it is starting to work. That is 
not the case with the police. And the Ministry of Interior is 
an enclave of partisanship, Shi'a partisanship. It is a choke 
point that is preventing the development of strong policing.
    And security for Iraq is going to be from the ground up 
when people feel safe in their homes. That is with police. That 
is not from Army. And I think we are delayed in getting proper 
attention on the role of policing, probably because we let--the 
military has too much shaped the overall architecture. We need 
to put more focus on police.
    One thing I would like to highlight for the committee to 
appreciate is we had with us one non-American. He should be an 
American. We would like to make him one. That is Duncan 
McCausland. And I learned more from him describing how Northern 
Ireland moved from open violence and hostility to a peaceful 
environment through a sophisticated understanding of the role 
of police. We have not had that, and that would be the place I 
would put focus here.
    General Jones. I would ask Mrs. Tauscher to ask Assistant 
Chief Constable McCausland to come to the table and say a few 
words because of his incredible experience that we all 
benefited from. And Secretary Hamre is exactly right, and I 
think it would be, I think, a good moment to listen to some of 
this observations.

 STATEMENT OF R.D. MCCAUSLAND, MA, ASSISTANT CHIEF CONSTABLE, 
                 URBAN REGION, BELFAST, IRELAND

    Mr. McCausland. Thank you, General, and thank you for the 
opportunity to speak.
    If I can give you an example of how Belfast progressed. 
There were times during sectarian troubles that we had the 
police where two police officers had to be supported by up to 
16 soldiers just to allow them to patrol and do the normal 
functions of policing. That then progressed to two sets of 
police vehicles patrolling together with three officers in 
each, heavily armored police vehicles again protecting the 
police, but allowing them to perform the policing duty. One 
vehicle with two officers in it, but again heavily armored. And 
then ultimately today as I speak, those officers are able to 
patrol in normal police cars as you would know them or walk on 
the beat and even now be able to ride bicycles. And all that 
has been achieved because of political reconciliation, because 
the community will start to trust and give consent to policing 
and have confidence in policing. And I think that is a 
critical, critical element to take forward.
    The police for me in Iraq hold the key to success. They 
hold the key to success to many of the questions that you have 
posed here today and that were asked earlier at the Senate in 
relation to the military commitment, because the police must 
take the lead in relation to the future and the future 
stability for the Iraqi people.
    Ms. Tauscher. Thank you very much, Mr. Chairman.
    Mr. Taylor. The Chair thanks the gentlewoman.
    The Chair now recognizes Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman, and thank you, 
Commissioners, all. It is indeed just a terrific group that you 
put together. I noticed that there were something like six 
Marines General, but despite that, you have done a terrific job 
with this report. And I say that for Dr. Snyder's benefit. And 
we are 40 percent Marine contingent here in the House.
    I almost don't know where to begin, so let me just do a 
little bit of summary and see if this is right. It seemed to me 
in my trips to Iraq and in the many hearings we had while some 
of you were in uniform over the last 2 or 3 years that there 
has been a consensus for some time that the Iraqi Army--but the 
Iraqi Army has been making steady progress and becoming more 
and more proficient and efficient, and they are in the lead in 
many, many places and taken the initiative. And as long as we 
have had some mentors with them, some embedded teams, they are 
doing well pretty much across the board. Is that the conclusion 
of the Commission?
    General Jones. I think that is a fair conclusion.
    Mr. Kline. So that is not a surprise. In fact, that is 
probably what you expected to see. You went in without 
preconceived notions, I am sure, but you probably did expect to 
see that, and that would confirm what your earlier expectations 
were; is that correct?
    General Jones. Speaking for myself, I was pleasantly 
surprised. I had been going to Iraq off and on since 2003 in my 
native hat, but I did not expect to see the will that I saw in 
the Iraqi Armed Forces to take the fight to the enemy. I did 
not expect to see the length and breadth of the institutions 
that are functioning that you need to support an emerging army; 
the training bases, the recruiting, the recruit training, the 
instructors, non-commissioned officer (NCO) schools, 
counterintelligence schools, training corpsmen. All of these 
things exist. We know that because we saw them; we went and we 
visited.
    So I have to say that I was--personally I was--and I think 
even the people who have been there every day for over a year 
will tell you that this Army has made a rather stunning leap 
just in the last calendar year, and borne out by the surge and 
the performance of the Army during those operations.
    Mr. Kline. I am looking forward to returning, I hope, in a 
couple of weeks because it has been a year since I have been 
there, but even then I was pretty impressed and talked to Iraqi 
generals and they were impressive in their understanding of 
their shortcomings and their expectations. And reports I was 
getting from American soldiers and marines that were--back to 
the trust issue that Mr. Taylor talked about--was it was 
growing, they had confidence in the Iraqis.
    But the police, of course, is another issue. And I am 
simply going to run out of time. You have so many 
recommendations, including disbanding the 25,000 national 
police, a lot more trainers, more labs, doing something about 
the Department of Interior. So I am going to leave that aside 
for just a minute and just sort of continue to bore or drill 
down, if you will, on the armed forces, except to say that I 
remember listening to General Casey say that we were going to 
have the year of the police. This was more than a year ago, I 
think in 2006. We are going to fix this police problem, and 
clearly we haven't. We have got a long way to go.
    Going back to the Army and to the armed forces in general, 
one of the shortcomings in the past was, and I assume it still 
is, they really have no logistics capability. They didn't have 
a field depot, they didn't have any field delivery trucks.
    General Jones. That is correct. They are critically 
deficient in combat support, combat service support and a lot 
of key enablers like that, yes, they are.
    Mr. Kline. So again, I am not asking you to you come to a 
number, but in order for them to function, even when they are 
taking the lead and they are doing a good job of fighting, it 
is going take a pretty big logistics support base on the part 
of the United States. Nobody else, frankly, has it for perhaps 
years to come; is that correct?
    General Jones. I think it is going to take a considerable 
period of time to get them into the independent zone that we 
want to get them to, but I think they are going to get there.
    Mr. Kline. So you do see there is some light there that is 
growing.
    General Jones. I think one thing we have to be careful of 
is that we understand that--we don't try to make them like us 
before we say they are good enough. Good enough is good enough 
for what they need to do, and we made that point in our 
observations, to be very careful to build this force for what 
it needs to be for an Iraqi force. We are not trying to 
recreate the 1st Marine Division here. We are trying to create 
a competent military that can do what they need to do in the 
environment that they are in.
    Mr. Kline. I see the light has turned red.
    General Jones. If I could, you raised a very important 
point, and if I could ask the indulgence of the Chair, I would 
like to ask Lieutenant General McKissock, who is our 
logistician, to come to the table because he has some 
interesting viewpoints on this problem, because this is a long-
term problem. So with the indulgence of the Chair.
    The Chairman. Just go ahead and answer your question.
    General McKissock. Congressman, that is a question that is 
near and dear to my heart, so I will take a minute or two. I 
will talk about the strategic level, the operational level and 
the tactical level very quickly.
    I think the Iraqi Ministry of Defense (MOD) has a plan in 
place; they have a plan in place to answer the questions that 
will allow them to provide logistic support over the next two 
or three years. They have identified a force structure. They 
have identified dollars in the foreign military sales area that 
will allow them to buy the equipment they believe they are 
going to need, although the delivery of that equipment is going 
to be a problem. There is going to be a time lag getting the 
equipment to them.
    They have also identified the dollars required to do the 
things at the operational level. And they have a large depot at 
Taji, which is essentially their center of gravity for logistic 
support for the Iraqi forces of the future that is a supply, 
maintenance, engineering and training base. They also have 
combat service support schools available there that, frankly, 
has not been operating at full structure, and the reason for 
that is because the Iraqis have made the conscious decision at 
the front end of their personnel strategy to outfit their 
operational units first and their logistics and support units 
second. They are now turning to their logistics units, and they 
are starting to put the force structure in place so they will 
have the capability in the field. They have obligated and look 
forward to spending, frankly, a large amount of Iraqi dollars 
to outfit the national depot at Taji, and I think they have got 
a good plan.
    At the tactical level it is going to take, we said in our 
report, two to three years, because it is going to take time to 
get the folks in the field who are really trained to do it.
    The interesting thing is that I asked a young Marine 
Lieutenant Colonel about three weeks ago in an exchange of e-
mails about the logistics of what was being provided by 
tactical logistics units of the U.S. forces in support of Iraqi 
Armed Forces in the al-Anbar Province, and he said almost zero. 
The logistics support being provided by tactical logistics 
units in Anbar Province are concentrated on the Iraqi police. 
So they are filling a vacuum that you have heard about before 
today about the inability of the Department of Interior to 
provide adequate support to the police. The facts are that the 
Army at least in this area is doing a good job on a day-to-day 
basis.
    One of the things that--and I will very quickly read a 
comment that he made. The Iraqi Army logisticians have a good 
grasp conceptually of what they have to do and repeatedly have 
shown that they can plan logistics operations. A pretty strong 
statement from a professional logistician wearing a U.S. 
uniform.
    So this is not going to happen overnight. It is going to 
take time. There will be hopefully an Iraqi solution to an 
Iraqi issue. We have been judging the Iraqi Army's progress in 
the logistics area by U.S. and coalition standards. When we 
leave, they will come up with their own solution, and we can 
help them do that with constant mentoring. But we shouldn't try 
to evaluate them or assess them using our standards. Probably 
they are going to come up with their own, and that will be good 
enough to get the job done. Thank you.
    Mr. Kline. Thank you.
    The Chairman. Mrs. Davis from California.
    Ms. Davis of California. Thank you, Mr. Chairman, and thank 
you to all of you. I think it is an extraordinary job that you 
did. And going back many times, as you have already, and 
presenting the report is important to all of us. I sat on the 
Oversight Committee when we were looking at the military 
development of Iraqi armed services and also the police, and we 
certainly could have used your expertise in doing that.
    One of the issues that we just talked about is logistics, 
and I remember one of the discussions around logistics having 
to be sort of understanding some of the more cultural issues. 
And I think that you have alluded to that a little bit, and 
that, in fact, we have to help them develop their own way of 
performing in that area. And I am concerned that as we train 
our trainers to work with the Iraqis, are we getting that? Are 
we able to, I guess, infuse in that training the kind of 
opportunities that they have in trying to help them better 
bring together their own application of whatever it is they are 
doing?
    And I would think if you are trying to work on how you 
create inventory, that there have got to be some basics around 
that. I remember the discussion that hoarding is not the same 
way that we think about it. But I am just wondering about the 
training of our trainers is one issue and whether or not we--
number one, you suggested that we don't have the trainers that 
we should. Does that mean that we have used many of the people 
who would be available in the counterinsurgency operations 
rather than having them stay and train Iraqis perhaps in both 
police and with the Army? Have we diverted some of our talent 
away from doing that, and should we make a very big point about 
bringing them back? And how are we actually training them? Are 
we having Iraqis to help with that?
    General Joulwan. I really think, as was mentioned by the 
last speaker, that what we are talking about is there is an 
Iraqi way and an American way. And I think you have hit on 
something here about what we are trying to do.
    On the logistics side--I am going to say this very candidly 
because this is what we found--that we are trying to impose a 
system on them that they are uncomfortable with. They don't 
like to contract out maintenance. We do. And I think what we 
need to do is reassess that and try to give them a system that 
they feel comfortable with. And contracting out logistics, to 
them, all we talk to is not one of them.
    So I would just say we need to reassess here about what is 
success and what is it that we can do. Remember--and I was with 
the Chairman of the Joint Chiefs. In the Iran-Iraq war of the 
1980's, Iraq moved corps on a front the size of a central front 
of Europe in World War II. And they resupplied them, and they 
got ammunition up there, and they fed them. I think we have to 
go back to really understand does this Iraqi way make some 
sense, and can they buy into it? And I think we need to look at 
it.
    Ms. Davis of California. Just a question. Do we have 
contractors who are working with the Iraqis as well, or are 
they all our military Active Duty and Reserves that are doing 
the training, or are we contracting some of that out?
    Dr. Hamre. We have contractors, quite a few of them.
    Ms. Davis of California. What percentage of that is 
contracted out?
    Dr. Hamre. The police training is all basically by 
contractors. The support in the depots is by contractors that 
we help facilitate. They pay some of it; we pay some of it. I 
don't know that we have the precise numbers for you.
    Ms. Davis of California. Are we able to help train those 
contractors then, or are they fairly independent? Because if we 
are trying to go help and support the Iraqi way, then what 
leverage do we have over the contractors who, in fact, may be 
teaching something quite different? Do we monitor that? And I 
think it is interesting. People have the impression that our 
military is doing this training and that it is not contractors. 
We might like to have a better sense of that percentagewise.
    Dr. Hamre. I think what is happening, and it is reflected 
in the operational and tactical side in al-Anbar Province, is 
that we are gaining a much greater respect and understanding of 
the Iraqi culture. The progress we have made in al-Anbar is a 
result of our understanding the Iraqi way of doing things and 
their culture and their cultural norms.
    When we transfer that thought into the logistics business, 
we have been for the last two or three or four years imposing, 
to use the words of General Joulwan, an American transparent 
system where you share information, and you share authority, 
and you share resources, and that is not the way the Iraqi 
culture works. Not only doesn't the culture work that way, but 
they have been taught in the old Army, which is certainly a 
Soviet-style approach to things, that you have layered 
responsibilities, and that is why you sign things many, many 
times.
    It is going to be difficult for them to move away from that 
model, and they will move away from it, but they will never 
move to our model because of the differences in the culture. I 
think our trainers understand that now. I think our trainers 
are taking the approach that an Iraqi way will be good enough 
to get it done. They do have a higher threshold of pain when it 
comes to making sure that supply and maintenance efforts are 
paid attention to.
    But there is no doubt in my mind that in the next two or 
three years, this is an organization that is essentially a 
straight-leg infantry organization, it is not a complex 
logistics issue. But it is going to take time to get training, 
get the equipment and get the personnel in place. But from our 
observations, these folks are focused, they have a plan, they 
have the resources to do it, and it is a matter of months, not 
years, two or three years, they will be up and ready to go. 
That is our evaluation.
    Ms. Davis of California. The time is up. Thank you.
    The Chairman [presiding]. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Let me add my thanks to the Commission. What an incredible 
array of talent. And I appreciate getting it done in 90 days 
versus 125. That is awfully impressive as well.
    Early today I heard a gentleman whom I previously held in 
the highest regard as a statesman in this body make some of the 
most horrible, egregious comments, impugn the integrity of a 
man who served this country in an exemplary manner. Basically 
what he said was--he said the White House had hijacked General 
Petraeus' report on Monday. We have not yet heard General 
Petraeus' report, and I just felt like those comments were just 
incredibly out of line, and I am going to have to rethink my 
high regard at which I held that gentleman.
    So I already know the answer, but just I want the question 
on the record and your answer as well. Has anybody in the 
administration and the Senate or the House, any Member, any 
chairman, any staffer, any person anywhere attempted to 
influence what you have said in this report or what you have 
not said in this report, or any of your conclusions or any of 
your findings; has anybody attempted at any level to hijack 
your report?
    General Jones. Absolutely not.
    Mr. Conaway. Thank you, sir. I knew the answer. I just 
simply wanted that on the record. The words were strong enough 
this morning that had the gentleman done that in west Texas, he 
would have gotten a poke in the nose. It was just awful what he 
did.
    I am going to continue now to how we go from where we are 
right now to where the Iraqis are at some point--using the word 
``enabler'' is a broad number, not just logistics, but also the 
other thing. Can we get to a point where we have no U.S. troops 
performing combat, slash, police functions, in which we are 
simply the, quote/unquote, ``enablers'' across that spectrum 
for the Iraqi Security Forces for some period of time while 
they build whether it is logistics or air support or fire 
support or whatever the various enablers are? Can we rationally 
get to that point where we have got nobody other than perhaps 
Special Operations guys doing any of the direct fight? Is that 
a rational point along the continuum of where we are going to 
go?
    General Jones. I think it is certainly out there as a 
possibility. I am not sure exactly--I couldn't tell you how 
long it would take.
    Mr. Conaway. I am not asking for a time.
    General Jones. But conceivably in the old spectrum of 
things that could happen, it is on the spectrum.
    Mr. Conaway. Okay. Well, I appreciate that. That may be a 
question more that is just an obvious question. Again, I 
appreciate your-all's service and your report. I appreciate 
looking forward to reading it and trying to digest it. Thank 
you for your service to our country.
    This will be one of the big three pieces of information 
that collectively we will use over the next several weeks to 
try to figure out which way we are headed, and I appreciate it 
getting in at a time for your report, the GAO report that we 
heard about yesterday, and then General Petraeus' report that 
we will hear on Monday.
    General Jones. There is a certain symmetry to these types 
of operations, if you draw on our experience, for example, in 
Bosnia, where for a while in Bosnia the fighting was very 
intense, and the military was the dominant piece, and the 
political reconciliation was down. And we approached a point of 
equilibrium, and then it became big P and little M in the 
military. And over time that is most likely what will happen in 
Iraq. You just have to hang in there and get to that point.
    We have picked up some general trends that we think are 
positive. We have also pointed out some things that are very, 
very negative and that only the Iraqis can fix simply by virtue 
of where we are today. And so it is very important that 
politically, also militarily--but we impress upon them the 
seriousness of the moment and the fact that if they do two or 
three things that we have repeatedly identified, that the 
likely product of those actions will be to hasten the project 
to perhaps a point you just described.
    Mr. Conaway. Thank you, gentlemen.
    Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman, and thank you all for 
your service. Your report is one of several, of course, that we 
are sifting through; the National Intelligence Estimate (NAE) 
report a few weeks back, unclassified version, as well as 
others. The GAO report came out, and we had a hearing on it 
yesterday, we had outside defense experts today and your 
report, and then, of course, two important reports or one, 
depending how it is presented, General Petraeus' and Ambassador 
Crocker's report, whether that is one report or two reports 
given to us.
    The consistent theme that I found so far in all these 
reports really is, and you all summed up pretty well--we all 
want to refer to page 130, so I will do my bit to do that. At 
the end of the day, however, the future of Iraq and its 
prospects hinges on the Iraqi people and the government to 
begin the process of achieving national reconciliation and 
ending sectarian violence. All progress seems to flow from this 
most pressing requirement. That theme is consistent throughout 
every other report that we have heard so far with regards to 
our review on Iraq.
    As a result of that, I think on Monday the most important 
testimony--not that both testifiers won't have important things 
to say, but the most important testimony will not be from 
General Petraeus, it will be from Ambassador Crocker, because 
if General Petraeus has to get 10 things right, and we only 
have 5 things right in Iraq on a list of 10, he gets 50 
percent. Ambassador Crocker has one thing he has to work on to 
get right, and that is political reconciliation in Iraq, and it 
is a very difficult job. And if it is not all right, it is not 
his fault. It is just he has one thing he has to get right.
    And so I think on Monday Ambassador Crocker's hurdle is 
even higher than General Petraeus' hurdle because, at least 
from what I can understand from everything I have read, the 
most pressing requirement is political reconciliation to end 
the sectarian violence. That is the most pressing requirement 
in Iraq. And the surge and the success or lack of success of 
the surge is extremely important, but it is only going to help 
try to create this breathing space, which so far hasn't been, 
to my knowledge hasn't been created, because we haven't seen 
political reconciliation there.
    And that is just an observation I want to make as a long 
preface to an answer I hope I can get from General Jones or one 
of the other folks, a couple of time lines. It said if we don't 
move deployment from 12 months to 15 months, that about April 
of next year we will begin having to draw down folks anyway. 
You said that it is going to take 12 to 18 months for Iraqi 
Security Forces to operate independently, largely 
independently. So that is beyond that 8-month time frame. And 
then General McKissock just told us that to create a logistics 
capability, an adequate logistics capability, is at least 24 
months away. Those time lines don't match up for our military.
    So can you help me try to match up those time lines with 
the end goal of being at what point can we start doing this 
strategic shift, because those time lines don't add up to what 
you have proposed we could do.
    General Jones. Regrettably I am not sure we can be of much 
help to you on those issues, because what we did not do is 
obviously assess our own forces and the domestic problems 
associated with rotations, although most of us are familiar 
with the issue.
    I want to make sure that we are clear that the Commission's 
finding with regard to the tasking that said will the Iraqi 
forces, Iraqi Security Force, be able to defend the territorial 
integrity of Iraq within 12 to 18 months, and we said, no, they 
won't. But they are able to do more in terms of defeating and 
fighting successfully the internal threats that they are 
fighting now; the al Qaeda, the terrorists, crimes, so on and 
so forth. But the territorial integrity of the nation, which is 
properly done by the Army, and the internal security, which is 
properly done by the police force, is something they are still 
moving to.
    Mr. Larsen. That implies a longer presence and potentially 
a pressure on deployment schedules for our own folks.
    General Joulwan. Could I just add, in looking at this 
requirement, 12 to 18 months, that we were given, we said that 
independently they could not--the Iraqi forces couldn't do it. 
But I think it is important if you read in the report if the 
progress continues as we have said we think it will continue, 
there can be a restructuring of armed forces within that 12 to 
18 months if that progress continues. And I think that needs to 
be understood here. At least that is the point that we are 
trying to make.
    Mr. Larsen. Okay. Thank you. Thank you, gentlemen.
    The Chairman. Mr. Jones, please, North Carolina.
    Mr. Jones of North Carolina. Mr. Chairman, thank you very 
much, and to Commandant Jones and the panel and the staff that 
put this together, we very much do appreciate this help.
    I want to pick up on Mr. Larsen for just a moment, and I 
realize your answer, so I guess I am going to be making more of 
a statement. I have Camp Lejeune down in my district, and in 
the last year I have had the privilege to see a large number of 
marines of different ranks off base. This report is going to be 
very helpful as we analyze--Members of Congress and this 
Nation, quite frankly--after we hear from Ambassador Crocker 
and General Petraeus next Monday. The whole issue, as we had 
Barry McCaffrey appear before our Oversight Committee chaired 
by Vic Snyder five or six weeks ago, and the hurt for many of 
us in Congress--and this wasn't your mission, so I understand 
that, but I want to make this statement. Barry McCaffrey is 
saying--and General Newbold was there, by the way. Commandant 
Jones was also in attendance on that panel. He says that the 
Guard, the Reserves, the Marine Corps and the Army will start 
to unravel next spring.
    I am not asking you whether you agree with him or disagree, 
but the point is, and what Mr. Larsen is saying, is that if the 
Iraqis don't get the message that this country cannot continue 
to supply the manpower and the money, the treasure to sustain, 
if we are talking about 18 months to 24 months, and then let us 
say it is not you, but it is another panel, maybe I am here, 
maybe I am not here in Congress, and after 24 months then you--
not you, but a panel says, well, we didn't do it quite in 24 
months, so therefore we are going to need another 18 months. 
Where in the world--can you say after your 20 days in Iraq--and 
I think this has been an encouraging report, I really do, I am 
not trying to be critical of that, I think it has been very 
encouraging, but do the people in Iraq that you met with, that 
you talked to who are Iraqis, do they understand where America 
is, both manpower and money?
    We are spending $10 billion a month over there right now. I 
will tell you, General Jones, really, the one thing that has 
bothered my heart, I was asked to go down to Johnson Elementary 
School at Camp Lejeune, and I will never forget this little 
boy. There were 10 children sitting in front of me as I read a 
book. It is a reading day across this country. And the last 
child--as I finish and let the 6-year-old ask me questions, the 
last child said to me, my daddy is not dead yet.
    Do the Iraqis understand that this cannot go on forever?
    General Jones. I think in some of the circles that we 
traveled in there is--one of the things that I took away was 
the repeated expressions of appreciation and concern for the 
sacrifice and what our forces were doing for their freedoms. 
And I think it was genuine. I don't think it was just because 
we were there. It was heartfelt. There was fear in the 
statements that this might come to a sudden end. I think that 
they are very concerned about that because of what might happen 
in the aftermath of any precipitous withdrawal. But they, like 
other countries around the world, they say this is the United 
States. The United States can do these things. Only the United 
States, perhaps, can do these things.
    And but yes, the cost is extremely high, both in money in 
terms of sacrifice, but there is a growing confidence in their 
abilities that as a result of a few years of nurturing and the 
presence of advisers, and developments of NCOs, and following 
in the path of some great soldiers in the generic sense, Army, 
Navy, Air Force, Marines, civilians who have led the way, that 
there is a confidence that they can do this.
    I think the process will be hastened if we get the national 
reconciliation and the government does what it must do, in my 
view, and does it quickly, that if that happens I think it can 
jump-start much more progress in a shorter period of time than 
we think about now. But it has got to happen. And it hasn't 
happened.
    So we are hoping that some things will happen. They do 
appreciate the sacrifice. Last two years the Iraqi contribution 
to their own national security, I think Secretary Hamre, 
correct me, has exceeded ours from a budget standpoint. Is that 
correct?
    Dr. Hamre. Yes. I mean spending for the Iraqis' budget for 
security, we paid for it for the first two years. These last 
two years it has actually been they paid the larger portion. We 
are still paying a fair amount of it. Now that is not the cost 
of our being there. But it is the cost of the Iraqi budget. And 
they are now carrying the heavier load.
    The Chairman [presiding]. Thank the gentleman. We are down 
to eight members who have not had the opportunity to ask 
questions. We will proceed with the 5-minute rule. Mr. 
Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. Dr. Hamre, is this 
report online, the CSIS Web site?
    Dr. Hamre. Yes. And I just got a note that said it has been 
downloaded 18,000 times in the last----
    Mr. Marshall. Okay. People who are watching this and have 
been trying to follow reports of the committee's report in the 
news media probably want to go look at the report itself, 
because you will get a very different impression if you read 
the report, and you don't have to spend a lot of time doing it, 
than the impression you would have from just looking at the 
headlines in some of the news stories that have covered this 
report. It really is the case that it seems like the press is 
just anxious to find whatever seems to be a little bit 
negative, and they just glide right over or elide right over 
the positive aspects that we all should be hoping for in this 
circumstance, as opposed to the contrary, that we hope that all 
the news is negative, which is just a shame for the country.
    And I have to follow up a little bit on Mr. Conaway's 
observation that you all are independent. You are described as 
an independent commission. I will just observe, Dr. Hamre, that 
you were Deputy Secretary of Defense under the Clinton 
administration, and you worked for many years as a staffer 
under Democratic administrations in the House--or pardon me, in 
the Senate.
    Dr. Hamre. Couldn't get in the House. I tried.
    Mr. Marshall. It was in the House? You tried. And CSIS has 
been very careful to make sure that this group is not motivated 
by any sort of policy objective other than what is in the best 
interests of the United States and its security and its long-
term national strategic goals, period. You are not shilling for 
the administration, you are not Republicans, you are not 
Democrats, you are just trying to figure out what is really 
going on with regard to the issues that you have discussed.
    And I would also like to--well, let me quickly talk about 
one issue. A little bit of confusion about this 12 to 18 months 
where the Army is concerned. I have been to the area of 
responsibility (AOR) 11 times now, most of those visits in 
Iraq. Your report is consistent with what I see and what I hear 
consistently. And that is that there has been dramatic 
progress, particularly in the last year, with regard to the 
Army. And this 12 to 18-month reference, internal, external, I 
have always taken it to be the case that it is going to be 
really quite some time before Iraq is capable to defend itself 
against external conventional threats and that we are going to 
have to help it. And largely, simply our presence saying don't 
fool around with Iraq is going to be sufficient to keep Iraq 
from having to deal with conventional external threat.
    The question is the internal chaos. We really can't deal 
with the internal chaos as Iraqis can deal with the internal 
chaos. And do I take it from your statement that it will take 
12 to 18 months before the Iraqi Security Forces are able to 
deal with the internal problems? Just the internal problems. 
Which are the real tough ones for us. Is it 12 to 18 months for 
just the internal stuff?
    General Jones. Our response to the tasking was that at the 
current rate of progress, over the next 12 to 18 months that 
they will continue to make improvements to deny Iraq as a safe 
haven for terrorists and to combat the internal threats of the 
nation. We believe that they will continue to make significant 
improvement. The Army has a plan to increase by a third just in 
the next year, another three divisions. So that is substantial.
    Dr. Hamre. Iraq.
    General Jones. I am sorry, Iraq. Perhaps Iran does, too. I 
don't know.
    Mr. Marshall. In the last sentence in the report, and I 
hate to parse the language here, but it is terribly important--
pardon me, next to last sentence in the report. You talk about 
the importance of reconciliation. And the language, I assume, 
was chosen very carefully. And it talks about the government to 
begin the process of achieving national reconciliation. Not 
accomplishing it. But you were very careful when you said to 
begin the process here. And then I am a little confused by the 
next phrase. It says ``and to ending sectarian violence.'' Does 
the ``begin the process,'' does that modify both the achieving 
national reconciliation and ending sectarian violence? Is the 
hope here that at least we show some substantial beginning of 
reconciliation and ending sectarian violence?
    General Jones. I think one feeds off the other. At the 
political level, if they do get political agreement to begin 
the reconciliation in the broad sense, part of that is--an 
important piece of that will be associated with ending 
sectarian violence.
    Mr. Marshall. I will just observe that you, I think, 
General Jones, said that there had been a stunning leap in the 
capacity of the Iraqi Army, the Iraqi military forces during 
the last year when there has been quite a bit of sectarian 
violence and no reconciliation whatsoever.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman. The gentleman from New 
Jersey, Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. To our panel, thank 
you for your collective incredible and ongoing service to our 
Nation. I think few of us can adequately understand the great 
debt of gratitude we owe you for what you have done and what 
you continue to do. I would like to pick up on a point that has 
been difficult for me to understand, having just returned from 
a trip into al-Anbar Province, and agreeing with your 
assessment of the dramatic and remarkable progress. I guess 
there are a number of factors that people are attributing that 
to that have come together in a positive way at the right time. 
I asked the question while I was there. I guess it is a very 
elusive and difficult answer. But in the more troubled spots of 
the country, why hasn't that model been able to be duplicated? 
Why don't we see that success in some of the more troubled 
areas? Do you have any comment on that?
    General Jones. Congressman, one reason would be that this 
has been historically an operating stronghold for al Qaeda. 
That al Qaeda is not all over the country, therefore the threat 
conditions change in many of the other provinces. In the north, 
in the Kurdish area, the same thing. It is a completely 
different situation. But in those areas where al Qaeda 
operates, al-Anbar being one of them, as a result of their 
miscues, and the savagery that they demonstrated, and the 
killings, and the brutality against the people, they are paying 
a price now for that kind of--that tactic. And the price is 
that people have rebelled against their concept. We hope that 
that could be exported to other areas, but it is likely to be, 
my view, others may disagree, but my view is it is likely to be 
more in the rural areas and more where there is ethnic 
plurality and associated against a threat like al Qaeda.
    Mr. LoBiondo. Do you have an opinion? Some have suggested 
that what has happened in al-Anbar, while sort of grudgingly 
admitting that there is some good things that have happened, 
have suggested that for lack of a better way of putting it al 
Qaeda can buy their way back into their previous position. Do 
you have any feel for the sense of that happening? That they 
would have mechanisms or abilities to quickly reverse the local 
attitude that has swung against them?
    General Jones. I suppose anything is possible, but I think 
just based on our visits there I think it is not likely to 
happen in the short term. I think we would have to make some 
very big mistakes ourselves to cause a shift of that magnitude. 
And from what I see with our troops and the wisdom of our 
leaders and the applying good principles of common sense of 
what you do with people in a counterinsurgency, I think they 
are on the right track. And I don't see that as reversible in 
the short term.
    Mr. LoBiondo. And the last area I wanted to question, you 
have said a lot about it, other members have commented about 
the critical need for the reconciliation, for the political 
side of this to work so that the military successes can be 
sustained. And in meetings with some of the Iraqi officials who 
are nodding their heads sort of in agreement that it has to be 
done. But we have sort of heard this for a while. In some of 
the meetings with the local officials in Fallujah, they were 
very optimistic about where they are and where they are going, 
but also pretty critical about the Prime Minister and the 
central government.
    Is it your view if we were to have this movement that we 
have been promised on de-Baathification and reconciliation that 
that attitude is likely to change pretty quickly by virtue of 
what would be coming of the reconciliation itself? Or is it 
just too ingrained in the Shia versus Sunni bit?
    General Jones. I will defer to others on this except to say 
that in the 1980's I was closely associated with the problems 
in Bosnia, where I thought I had seen the maximum type of 
ethnic hatreds that one could see between the Croats, the 
Muslims, and the Serbs. And all I can say is that the 
government is going to have to do an awful lot to convince the 
people that it really is--to show that it really is not 
sectarian, and that it does want to take care of all Iraqis in 
a proper way, and wants to give them a better life and 
opportunity. That is going to take positive action. It is also 
going to take time.
    Mr. LoBiondo. Thank you very much.
    The Chairman. Thank the gentleman. Before calling on Mr. 
Johnson, let me remind the members that there will be the 
opportunity to submit questions for the record, which, General, 
I hope you would receive and make timely response thereto. I 
know Mr. Ortiz will have one, and I am sure there may be 
others.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. I want to thank each 
of you all for your service to the Nation. This morning there 
was a hearing where Dr. William Perry, who is former Secretary 
of Defense, and also a member of the Iraq Study Group, we 
received testimony from him today. And one of his statements 
was that the most important benchmark that needs to be achieved 
by the Iraqi government is reconciliation between the Shias and 
the Sunnis. And he pointed out, as the GAO report pointed out, 
or as the GAO report found, that the Iraqi government had 
failed to show significant progress toward meeting that 
benchmark. And so in that regard I wanted to ask whether or not 
you all studied the makeup of the Iraqi Security Forces? Can 
you share with us any information in that regard? Makeup in 
terms of Sunnis, Shia, Kurds, even tribal personnel?
    General Jones. We certainly did. And as Chief Ramsey 
pointed out, that in those areas where there is no ethnic 
balance you have sectarian problems, particularly in the 
National Police, which is 85 percent Shia. On the Army side, 
our testimony would be that of the 10 Iraqi divisions, 4 are 
Shia led, 4 are Sunni led, and 3 are Kurdish led if I have that 
right.
    General Joulwan. They are developing one, so that is 11.
    General Jones. Three Sunnis and four Kurds. On the Army 
side of things there seems to have been paid more attention to 
the ethnic makeup of the force, and correspondingly, fewer 
problems. On the police side, not as much attention has been 
paid to that. Correspondingly, higher problems. Is that fair, 
Chief?
    Mr. Johnson. Okay. If you will, I would just like to move 
on. I would like to move to this question. Describe the command 
and control relationship between the Iraqi national government, 
which is of course controlled by the Shia, and the Iraqi 
Security Forces, if there is any command and control 
relationship. Can you all describe that?
    General Jones. Sure. Let me ask General Joulwan to take on 
the Army task.
    Mr. Johnson. Because it appears that with private 
contractors training the Iraqi Security Forces, with the Iraq 
government being kind of out of balance with respect to being 
able to bring some reconciliation between Shias and Sunnis, it 
just seems to be a dysfunctional kind of structure there. And 
could you all just shed some light on that?
    General Joulwan. On the command and control, particularly 
in the Army and Special Forces side, let me go to the Special 
Forces. And by the way, it is a totally integrated organization 
in the Special Forces. All factions are represented and they 
are performing superbly. The issue on command and control is 
that while we were there, it now reports directly to the Prime 
Minister. And so when you talk about the chain of command, some 
of us thought that was an issue here, that if it reports 
directly to the minister they are bypassing a great deal of the 
military chain of command from the Ministry of Defense on down. 
There is also some indication that in the chain of command that 
there is interference by the--at the Prime Minister level, if I 
could be very candid. And I think we mentioned it in this 
report about bypassing again the Minister of Defense and some 
of the forward deployed commanders in giving instructions down 
to the lower levels. So I think there is a chain of command 
issue here within the Army and within the Ministry of Defense 
and within the office of the Commander in Chief, the Prime 
Minister. And I think that needs to be looked at if we are 
going to get through this sectarian part of the challenge that 
we face.
    Mr. Johnson. Okay. And I will note that we have spent about 
$19 billion in U.S. taxpayer money training the Iraqi Security 
Forces, and another 2 billion is requested for the 2008 fiscal 
year.
    And with that I will close. Thank you.
    Mr. Taylor [presiding]. The Chair thanks the gentleman. The 
Chair now recognizes Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. I would like to point out that 
I was quite pleased to hear that nobody interfered with your 
report. But I do think it is important to mention that the L.A. 
Times reported on August 15th, and I will read to you, despite 
Bush's repeated statements that the report would reflect 
evaluations by Petraeus and Ryan Crocker, the U.S. Ambassador 
to Iraq, the administration officials said it would actually be 
written by the White House, with inputs of officials throughout 
the government. So clearly your report was different, and I am 
very pleased to see that.
    Your report also put me in despair, and I would like to 
read some of it. There are at least 2 million Iraqi refugees 
throughout the Middle East, an additional 2.2 million displaced 
persons within Iraq. 70 percent of Iraq residents lack adequate 
water supplies, compared with 50 percent in 2003. 28 percent of 
children are malnourished, compared with 19 percent before the 
2003 invasion. 92 percent of Iraqi children suffer learning 
problems due to the stress of the war. Sadly, international 
funding for humanitarian assistance in Iraq has plummeted from 
453 million in 2005 to 95 million in 2006.
    Gentlemen, this shows a great tragedy in Iraq. I would also 
like to point out the map that is here on ethno-sectarian 
violence. The brown is the mixed communities. It appears to me 
that what has happened here is we have had ethnic cleansing. I 
can see the green and I can see the blue, but the mixed 
communities are gone. Have we had ethnic cleansing?
    General Jones. There is certainly a possibility that there 
has been a shift in where people live. Some of it has been 
caused by the fighting, some of it caused by simply the 
decision of the families to move out of these contested areas. 
Unfortunately----
    Ms. Shea-Porter. Decision of the families based on the fact 
that they are pressured, there is violence, poor security?
    General Jones. Poor security, yes.
    Ms. Shea-Porter. I appreciate your frankness there. I would 
also like to point out that you were talking about this 
wonderful surge of support from the Iraqi forces. However, half 
the Iraqi parliament, more than half voted to ask us to leave, 
which I find very disturbing, since we have been calling them a 
democracy, and they did ask us to leave. And also the Sunni, a 
lot of the Sunni government officials recently resigned. Do we 
have political reconciliation here? Do we have a possibility of 
political reconciliation?
    General Jones. This is a little bit far afield from our 
mandate, but John?
    Dr. Hamre. I think these are questions quite appropriately 
that should be directed to Ambassador Crocker. It was not in 
our area to assess, and we really didn't spend time looking at 
the political dynamic inside the government.
    Ms. Shea-Porter. Again I do appreciate your service to our 
country. I am grateful that you went there and looked at these 
forces, but the truth of it is that everything you looked at 
talks about political reconciliation in tandem with, so it is 
pretty difficult to look at one aspect and not merge them. And 
clearly my desire today is to merge them to say no matter what 
else happens, those horrendous figures that you put in the 
book, and I thank you for that, coupled with what I mentioned, 
and that ethnic cleansing, does not look good for the future of 
Iraq.
    So I guess my final question to you is, based on what you 
saw and what has happened to the Iraqi people, what has 
happened to the United States people, when will you say this is 
enough and would you say this is enough if I asked you when to 
end?
    Dr. Hamre. Again, our charter was fairly narrowly drafted. 
And we felt it was important, because this is such a hot and 
hotly charged issue, for us to stay fairly firmly inside the 
boundary of our specific charter. Every individual here might 
have personal views. But we presented a consensus report to 
you. And I think we should stay at that. I think that is how we 
can be helpful to you, the Congress, rather than to try to 
offer individual comments or speculation on how to answer.
    Forgive me for dodging it.
    Ms. Shea-Porter. No, I thank you for that. I understand. 
And I clearly am deeply concerned about the possibility of 
success. And so I felt that, you know, I needed to ask you 
that. And I thank you again, everybody, for going there and 
doing what you did for this country. Thank you.
    Dr. Hamre. Thank you.
    Mr. Taylor. The Chair thanks the gentlewoman. The Chair now 
recognizes Admiral Sestak.
    Mr. Sestak. Thank you for your time, sirs. I just have a 
couple quick questions, and because of limited time hopefully 
quick responses. General Joulwan, will their Army in 18 months 
potentially, or 24 months, be the exact equivalent of ours as 
we do our efforts out there in Iraq?
    General Joulwan. The exact equivalent, quickly, no. But 
they can make substantial progress.
    Mr. Sestak. Thank you. General Jones, my question to you is 
will the security situation improve, in your assessment, having 
been there, over the next 18 or 24 months if absolutely no 
political accommodation is taken? If so, would that be 
because--if not, okay. If so, would that be because of our U.S. 
military presence primarily?
    General Jones. I think the internal security of the country 
will improve simply because of the increase in the capability 
of the Iraqi Army. Hopefully, that will be accompanied by some 
police reforms. But the thing that will make the most 
difference is achieving political reconciliation.
    Mr. Sestak. So Secretary Hamre, my question comes back to 
you. Since I was struck by your reference in asking Chief 
McCausland to speak about Ireland, if the security situation 
will improve somewhat, primarily because they get better, but 
then we absent ourselves, we go to the borders, my question 
really comes and the Iraqi Army is not going to be as capable 
as we are, and if there is no political accommodation, are we 
really, while this report is very good, are we actually 
measuring the wrong benchmark for progress? Because in Ireland, 
unless Ian Paisley and Gerry Adams had come to an agreement 
politically, we never would have gotten down to a police car 
with two people sitting in it. It began with political 
accommodation. And then the police could become less with no 
Army.
    So in fact, Mr. Hamre, from your more broader political 
aspect here, because you did say in your first chapter that you 
wanted to comment on the general trends associated, really 
while this benchmark is interesting, it is relatively not 
irrelevant, but we are actually measuring and looking at the 
wrong thing. It must be political accommodation first if that 
Ireland is your example--Northern Ireland, I apologize.
    Dr. Hamre. Admiral, I think this report, when--these are 
security professionals. These are 500 years of military 
experience, 150 years of police experience. These are security 
guys. Their first recommendation is that this really has to 
begin with political reconciliation.
    Mr. Sestak. It must begin with political----
    Dr. Hamre. It is going to be dramatically harder without 
it.
    Mr. Sestak. So any assessment that comes with this, if you 
don't mind, Mr. Secretary, that tells us about improvement in 
the Army is interesting, but unless someone is coming on 
Monday, as Mr. Larsen was getting to, and telling us about 
measuring progress in political areas, this report is 
interesting, but relatively not that relevant to what really 
should be measured.
    Dr. Hamre. But I--sir, I think it would be much harder to 
get political reconciliation if there aren't structures that 
politicians can rely on to help produce what citizens want. And 
the goal of producing an Army that is able to bring security to 
the country is going to be a positive value for that 
reconciliation. So even though we feel the political 
reconciliation clearly has to be the primary lead----
    Mr. Sestak. And first you said.
    Dr. Hamre. It will make it much harder. I don't know how it 
gets solved.
    Mr. Sestak. If I could comment, just so you understand, I 
have been struck how somehow we have permitted the Petraeus 
report, a general, to set the tone of the national debate in 
September on a military security issue. Nowhere are we having 
the tone set by what is in the U.S. security interests or the 
U.S. military interests. As I was struck in Iraq when I asked 
the General what about the impact of Iraq on our Armed Forces 
at home? That is not my role, he said. And so while this report 
and the GAO report that we were given are interesting, 
shouldn't we really be measuring not the progress of Iraq in 
benchmarks, but the benchmarks of U.S. security in the region 
by looking at the political accommodations and the nations 
attendant to that?
    Dr. Hamre. Sir, I think that is the integrated challenge 
that only the Congress can resolve. You are getting different 
inputs from different experts, different commissions, and you 
are going to have to be the ones that pull this together to 
decide what is the right course. We weren't asked to do that.
    Mr. Sestak. I understand.
    Dr. Hamre. And we are trying to offer a valid input to you 
as you are going to have to.
    Mr. Sestak. I only comment because I was also struck in 
your report that although Iran and Syria are involved 
destructively, the comment in your report of how to deal with 
that is protect the borders militarily. Nothing about trying to 
deal with those two diplomatically. Not your role. But that is 
my concern, is the debate that begins on Monday is on a 
military approach, not--we are definitely not on the correct 
level for this debate on Monday with the general. Hopefully, 
Ambassador Crocker will bring that to what should be the 
President's, as it is called, report within that political 
context.
    Thank you, sir. I am sorry, General.
    General Jones. No, I was just simply going to add that, 
personal observation, that what is lacking, what has been 
lacking is a strategic debate. It is a lot easier to talk about 
tactical issues, about whether units are doing well and 
everything else, and that seems to be what we gravitate 
towards. But the strategic consequences and the strategic 
issues of this particular problem really should be engaged at a 
much--at a higher level. And we certainly applaud that as a 
commission.
    Our job was to answer a limited, fairly narrow set of 
questions. And we actually went beyond that by writing the last 
chapter in just an effort to be helpful, to try to interpret 
what this might mean based on what we found out. But you are--I 
think we agree with you that there are many strategic issues 
beyond that that have to be debated.
    Mr. Sestak. Thank you, General. I only took liberty because 
you opened that door.
    Mr. Taylor. The Chair thanks both the Admiral and the 
General. Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman. And I want to commend 
the commission, comment on the work that you have been able to 
do in such a short period of time, and the personal time that 
you have all spent in trying to serve the country even more 
than you have already served, whether it be in the front line 
of a police department or in our military. I guess there are 
two or three questions that a lot of members have been asking 
and you have been kind of answering them the same way or 
differently. But I guess I want to really kind of focus on the 
police end.
    I recently had an opportunity over the break to go over and 
go into Fallujah and had an opportunity to walk about three to 
four blocks to a police station. Now it wasn't like a Starbucks 
kind of walk that I was going to stop in and get a cup of 
coffee with a platoon of Marines, but I can tell you that I 
can't help--and I am so glad to see my good friend Chief Gainer 
and Chief Ramsey working together again. And Chief Timoney I 
know that could not be here today. But when you look at the 
whole policing issue and the money that is on the street, I 
live here in Washington. When I am home I live in District 2, 
but I live in Police District 1 here in D.C. And we will go 
down to the recreation center and have our little meeting, and 
we will talk about crime. We talk about bicycles missing. We 
talk about gunshots. And obviously the chief in her wisdom or 
the police commander would say, fine, we will get right on it, 
and then we start seeing bike patrol, mounted patrol, foot 
patrol. And then crime starts to go down and we feel good. But 
what is happening in 3, 4, 5, 6, and so on, in the other 
districts? And I can't help but see some of the limited access 
issues that we saw in Fallujah, with all of the streets blocked 
off, and the mayor having to give out permits for individuals 
to make movement there. You park your car. So you are going to 
see this kind of drop there. I am really concerned about how 
long can we maintain that level of safety.
    Your report, which I haven't read all of it, but I had an 
opportunity to get a copy last night, but what I have read is 
how do we move from this point on? And you were given three or 
four benchmarks to kind of look at. Not benchmarks, but 
assessment areas. When you look at the Iraqi military and you 
start talking about the safety. Because as a Member of 
Congress, as a member of this committee, I sat on this 
committee, I have been here five years now, and in this room I 
have heard dates. I have heard timelines when we will be able 
to close the door on issues and turn it over to the Iraqis. And 
I think we are in one of those moments again that it is going 
to be two years from now we are going to have another 
commission, we are going to have another study group, we are 
going to have another group that will put together some sort of 
report.
    My question is really going down the line of our police 
professionals that are here. I think as we look at safety and 
as we look at trying to make sure that terrorists don't have a 
safe haven again, I don't see that being a military effort. I 
think that you will find that mainly with the police officer 
that is covering a certain province, or whatever the case may 
be, that may understand and be able to detect that kind of 
thing. I know in this report it has been reported that we need 
to look at the whole police effort all over again. And some of 
your colleagues in the past have been a part of this. Can you 
kind of share with me from the policing standpoint--we can't 
look at it as it relates to a U.S. strategy, but how do we look 
at longevity of the safety in some of the neighborhoods?
    Mr. Gainer. Thanks, Congressman, for the question. It is 
good to talk to a fellow police officer who worked for the 
second greatest police agency in the United States other than 
the Illinois State Police. But very seriously, we saw 
significant progress in some of the different areas. And the 
specialty units, as Chief Ramsey mentioned earlier, that could 
be born out of the National Police, that small 23,000 group, 
could really augment what the local police are doing. So we 
made 11 findings and 11 recommendations when it comes to just 
the Iraqi Police, and another seven findings and about four 
recommendations to the National Police. So if we stick to those 
recommendations, and implement that with the military help of 
the U.S. military service and the Iraqi service, the police 
department will continue to develop.
    So it is a hopeful situation. When we were up in the 
Kurdish area, they were doing very, very well. Their police 
academy was open to people from outside the Kurdish area, 
Sunnis and Shias, and they had Sunnis and Shias moving into 
that area. And when we were out in the al-Anbar Province area 
visiting that academy, we also saw that they were open. One of 
the things that we are suggesting is that the police 
departments become provincialized, which means they are going 
to be more dominated by one culture and sect more than the 
other. And once they stabilize, then we can move to the more 
diverse police-type atmosphere that we would all prefer. But 
that will be incremental.
    So along with the internal affairs units and the training 
and the operational preparedness that we are suggesting, the 
sergeant, lieutenant, captain police type academies, it can be 
done.
    Mr. Meek. Chief, just real quick, we have a lot going on on 
the ground as it relates to these development groups. Well, 
Chairman sat down and hit the gavel. But can I just close this 
one little, Mr. Chairman?
    The Chairman [presiding]. One little.
    Mr. Meek. Thank you, sir. Thank you, Mr. Chairman.
    We have a lot of money on the street right now. And as you 
know as a former chief and law enforcement executive here in 
Washington, D.C., it is always good to be able to help people 
with their problems and put them back to work. That money is 
not always going to be there, the $10 billion number a month. 
The longevity, the poverty that is going on, there are a lot of 
issues here. So as you move on, all of you are going to be 
asked, because you are part of this commission, how do we get 
to the next level? Some of you will be asked to serve again. 
But I think it is important, Mr. Chairman, that we look at this 
from a standpoint of when can we close the door on certain 
issues and hopefully not open that door again?
    I am one of these individuals that firmly believe that we 
are going to be providing technical assistance to keep al Qaeda 
and other groups, when I think the majority of the violence is 
sectarian and not al Qaeda, what have you, to keep it down 
throughout the world. We have over 700 facilities either we 
leased or own throughout the world as it relates to this issue 
against terrorism. In the Philippines we are providing the kind 
of technical assistance and letting them fight the fight. And I 
think that is what Americans will be able to get their arms 
around in the future. It won't be every U.S. troop out of Iraq. 
We are going to be there for a very long time. I do realize 
that. But the kind of sensible ``down to the neighborhoods'' 
success that I saw when I was in Iraq, and I was only there 22 
hours on a third trip, on the ground, we are going to have to 
see more and more of that as we move on.
    Thank you, Mr. Chairman, for your latitude.
    The Chairman. Thank you. The patient Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman. And thank you, each 
of you gentlemen, for your service to our country. General 
Jones, I still remember being there for your ceremony when you 
were installed as the North Atlantic Treaty Organization (NATO) 
Supreme Allied Commander in Europe, and we were honored to be 
with you when that ceremony occurred. And I have followed your 
entire career, and greatly appreciate your particular 
commitment.
    Gentlemen, you mentioned on page 129 of the report about a 
status of forces agreement, and you used the phrase ``where we 
have a military presence.'' I have two or three very specific 
questions. General Jones, I will let you take the lead unless 
you defer one of these to one of the other gentlemen. But 
number one, you state in this paragraph on page 129, we believe 
all our bases in Iraq should demonstrate evidence of Iraqi 
national sovereignty, Iraqi headquarters and national flag. I 
assume that that does mean no permanent American bases in Iraq. 
Is that correct?
    General Jones. It should be taken in the context of the 
other recommendations that we made, to convey to people of 
Iraq, convey to our own public or whoever needs convincing, 
that our presence there is temporary and that Iraqi sovereignty 
is paramount. And we should continually do those things large 
and small, some of them are optics, some of them are 
substantive,to adjust our footprint to make sure that we are 
there to do the things we need to do, and not there to occupy 
the country or give the impression that we are there to do 
that. So, yes.
    Mr. McIntyre. All right. So, yes. All right. Thank you. And 
next, how many U.S. troops should remain at minimum for 
training and security if redeployment occurs? And we understand 
what the mood of the Nation and the Congress is. But assuming 
that there is some redeployment and movement of troops, 
drawdown of troops subsequent to the surge and all, however you 
want to put it in context, but what would you believe in your 
commission in order to continue the necessary training that you 
all so eloquently outlined, what would be the minimum level of 
U.S. troops you believe should remain, should redeployment 
occur, that would allow the training and security that you 
advocate?
    General Jones. Congressman, within the time frame that we 
were able to devote, and within the limits of our mandate, we 
didn't get into any analysis of what a follow-on force might be 
or a stay-behind force might be. It was just simply not on our 
horizon, so I would be giving you a guess, and I would prefer 
not to do that.
    Mr. McIntyre. So you all had no discussion of how many 
troops per police unit, or working with the Army that you need 
to remain?
    General Jones. We think--we know that the importance of the 
trainers, the mentors, the coaches, whatever you want to--
however you want to call them, are going to be important for a 
considerable period of time. We have heard the chief say that 
there are not enough police trainers now, and we agree with 
that. We believe that the embedded trainers that we have seen 
and that we spoke to are critically important to the continuing 
favorable trend of the Iraqi Army. But what the exact amount 
is, I am sure that the uniformed authorities that you will hear 
from in the near future will be able to give you a better 
figure.
    Mr. McIntyre. All right. Do any of you other gentleman have 
a comment on that with regard to the minimum level of troops 
for continued training and security?
    Dr. Hamre. We were asked to look at the Iraqi Security 
Force, so we didn't really look at that question. It is a valid 
question, but it wasn't in our scope, sir.
    Mr. McIntyre. The troops that do remain, would they be used 
for training the Iraqi Army only, since earlier in answering 
testimony of Ms. Davis you stated that all police are currently 
being trained by contractors?
    Mr. Gainer. It is our finding and recommendation of the 
commission that the training of the police would be done by 
senior law enforcement officers. And how they get there, 
whether it is under the State Department, the Department of 
Justice, or a contract would be the way to do that. The 
military has done a yeoman's job thus far, but their expertise 
is not in running civilian police departments or managing them 
or training them.
    Mr. McIntyre. All right. So the answer to that would be 
yes, the American troops that would remain would be for 
training the Iraqi Army, not the police forces?
    Mr. Gainer. Correct.
    Mr. McIntyre. All right. Thank you, sir. And then in the 
remaining few moments I have, General McKissock, I believe you 
said earlier that the Iraqis should be able to assess 
themselves with their own standards. We heard from the GAO 
yesterday that indeed the Iraqi benchmarks which were set by 
the Iraqi government, they have only met three of the 18 
benchmarks that they themselves have set.
    What gives you any more confidence that they could set 
their own standards that could be met in regards to this type 
of training? Is there anything that demarcates, in other words, 
why you think the Iraqis would be more capable of setting their 
standards for this kind of training than they have been for the 
benchmarks in the other areas that GAO has examined?
    General McKissock. Congressman, my comment was directed at 
the fact that they would come up with their own acceptable 
standards. A littler earlier in my testimony I quoted an 
officer on the ground that one of the things that he said was 
the Iraqi Army has a lower operating standard and higher 
threshold of pain. In other words, they have different 
standards for acceptable logistic support than we do. That was 
the context of my comment.
    Mr. McIntyre. Well, but you also said you think they should 
assess themselves with their own standards. That was your 
comment earlier. Do you stand by that comment?
    General McKissock. Yes, I do.
    Mr. McIntyre. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Assuming no one else 
wishes to ask a question, let me thank the gentlemen before us. 
I would be remiss, however, if I didn't make reference to a 
paragraph on page 127 that says strategic shift. The strategic 
implications of such continuing successes are encouraging. 
Coalition forces could begin to be adjusted, realigned, and re-
tasked as the Iraqi Army is able to take on more responsibility 
for daily combat operations. The commission finds it reasonable 
to believe that such adjustments could begin as early as 2008, 
depending upon the continuing rate of progress of the Iraqi 
Security Forces.
    And I must tell you that of course is encouraging. And 
there is no way to thank you for your hard work and your 
continuing efforts to help our country. And it is good to see 
familiar faces sitting behind you that we have known and seen 
through the years. A special thanks to General Jones, to you, 
and to each of you. It has been a pleasure hearing you, and we 
thank you very, very much for your work.
    [Whereupon, at 5:19 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 6, 2007

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 6, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7733.001
    
    [GRAPHIC] [TIFF OMITTED] T7733.002
    
    [GRAPHIC] [TIFF OMITTED] T7733.003
    
    [GRAPHIC] [TIFF OMITTED] T7733.004
    
    [GRAPHIC] [TIFF OMITTED] T7733.005
    
    [GRAPHIC] [TIFF OMITTED] T7733.006
    
    [GRAPHIC] [TIFF OMITTED] T7733.007
    
    [GRAPHIC] [TIFF OMITTED] T7733.008
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           September 6, 2007

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. General Jones, after four years of building the Iraqi 
Forces and spending $19.2 Billion dollars on training and equipping the 
Iraqi Security Forces, can you explain to me, based on your independent 
assessment, why the ISF is still woefully short of equipment used to 
conduct combat operations and why they are unable to support themselves 
logistically?

    a.  Is it due to poor planning on our part? Is it unwillingness on 
the Iraqis part?

    b.  Why are they not further along in being able to defend their 
own country, thus relieving our troops of that responsibility?

    General Jones. The Commission found that the Iraqi Army is 
adequately equipped to conduct counterinsurgency warfare although its 
inventory of assets is limited in comparison to the equipment and 
platforms of its neighbors. The Commission also found that equipping 
the Army with more armor, artillery, and mobility would be tactically 
advantageous and would communicate a powerful message to the Iraqi 
people and to the enemy about the growing strength and capability of 
the Iraqi Army.
    The Coalition and the Iraqi Army have worked hard to strike the 
appropriate balance between keeping the Iraqi Army in the fight, using 
Coalition forces to provide the key combat enablers the Iraqi Army 
needs and cannot yet provide for itself, and building the Iraqi Army's 
capacity to sustain its own combat power. The challenge the Coalition 
and Iraqis face in this regard is akin to building an airplane while 
flying it--and, in this case, while getting shot at. The Iraqi Army has 
literally been rebuilt from the ground up. Bringing online the 10 
divisions currently operating at capacity, developing leadership, and 
recruiting and training sufficient manpower has been a significant 
achievement by the Iraqis and Coalition.
    At the same time, logistics, supply chain management, and combat 
sustainment remain highly problematic within the Iraqi Army, and a 
solution is at least 24 months away. The Iraqi armed forces are not yet 
fully familiar with all of the new systems they have acquired, and 
there is a real temptation to rely more heavily than necessary on the 
Coalition to provide support. The Commission recommended that Coalition 
forces work more closely with the Iraqis to develop solutions that are 
consistent with an Iraqi standard, even if that is not always optimal. 
Perfect is often the enemy of the ``good enough,'' and by failing to 
step away, the Coalition can unintentionally foster dependence and 
resentment.
    If the coalition and the Iraqi Army can address the logistics and 
other support shortfalls facing the Army, that force could make 
substantial progress in the next 12-18 months toward taking increased 
responsibility for operations. The Commission does not believe, 
however, that the Army will achieve operational independence during 
this time frame.
    The Commission also found that both the Iraqi Air Force and Navy 
are adequately equipped for their current missions. Both also appear to 
be pursuing appropriate acquisition plans. Like the Iraqi Army, 
however, the Commission found that both the Iraqi Navy and Iraqi Air 
Force must address issues of maintenance, logistics, supply chain 
management and combat sustainment. This will be somewhat difficult, 
because at present they are not well represented at the Ministry of 
Defense. Furthermore, the Government of Iraq will have to prioritize 
the development of these forces if they are to succeed in the future 
and stand up to their long-term missions.
    As the Coalition continues to address the challenges facing the 
Iraqi armed forces, the Commission believes that perhaps by early 2008, 
a strategic shift could take place. The Iraqi Army should be able to 
take more responsibility for daily counterinsurgency combat operations, 
and the Coalition forces could be re-tasked to better ensure the 
territorial defense of the state by increasingly concentrating on the 
eastern and western borders and the active defense of the critical 
infrastructures essential to Iraq. Such a strategy would include 
placing increasing responsibility of the internal security of the 
nation on the ISF, especially in the urban areas.
    In contrast to the Iraqi armed forces, the Commission found that 
Ministry of Interior forces--which include the National Police, Iraqi 
Police Services, and Department of Border Enforcement forces--lack the 
vital equipment that would allow them to do their jobs effectively. The 
Ministry of the Interior is deeply dysfunctional and its inability to 
function impairs all of those forces under its control. This is 
especially true for Iraq's roughly 135,000-strong Iraqi Police Service. 
Many police stations still lack uniforms, weapons, and vehicles, as 
well as spare parts and ammunition. Police typically patrol in 
unarmored Nissan pickup trucks or midsize sport utility vehicles and 
there is a stark contrast between the lightly outfitted Iraqi police 
and the Coalition patrols that move around cities like Baghdad in 
armored Humvees or Stryker vehicles manned with soldiers outfitted in 
60-80 pounds of full body armor and bristling with weapons. Reflecting 
this contrast in equipment levels, members of the Iraqi Security 
Forces, including the Iraqi Police Service, are killed at three times 
the rate of Coalition forces in Iraq.
    Over the longer term, the Commission found that without serious 
reform of the Ministry of interior, it is unlikely any MOI forces will 
be able to provide security to the provinces and fight terrorism within 
Iraq. The Commission made a number of recommendations aimed at 
reforming the Ministry of Interior, to include development of a new 
organizational structure, development of a five-year strategic plan, 
and establishment of sufficient administrative capacity to sustain 
Iraq's civil security forces in the field in a manner that is free of 
real or perceived sectarian bias. Ultimately however, only the 
Government of Iraq can make the changes necessary to transform the 
Ministry of Interior into a much more functional government ministry.
    Mr. Ortiz. I recently sent this letter to Chairman Skelton about 
equipping the ISF with non-NATO equipment that is readily available and 
much more cost effective than US equipment. Can you please comment on 
the idea of equipping the ISF with non-NATO equipment and the current 
equipment challenges the Iraqis face?
    General Jones. The Commission is not aware of any prohibition 
against the purchase of non-NATO standard equipment for use by the ISF. 
For example, the Iraqi Army presently uses Soviet-built BMP-1s, 
Brazilian EE-9 Cascavels, and Russian-built MT-LB tracked vehicles and 
BTR-80 six-wheel vehicles. Both the Iraqi Army and National Police are 
also using the REVA 4x4 MKII Armored Personnel Carrier, produced by a 
South African company. Other equipment includes NATO-donated T-72 tanks 
(from former Eastern bloc countries) and significant quantities of 
equipment from the U.S. purchased through the FMS program (including 
HMMWVs, M-16 and M-4 rifles).
    Mr. Ortiz. Is the current equipment shortfall the Iraqis have 
slowing their ability to ``stand-up'' their forces?
    General Jones. The Commission found that the Iraqi armed forces--
the Iraqi Army, Special Forces, Air Force, and Navy--are adequately 
equipped for the counterinsurgency mission that is the primary focus of 
these forces today. The Iraqi armed forces also have acquisition 
programs underway to augment and upgrade their equipment over time.
    As noted above, the armed forces do face deficiencies in combat and 
combat service support capabilities and will continue to rely on their 
Coalition partners for assistance in maintenance, logistics, and other 
support functions. The Ministry of Defense's efforts to address these 
challenges, as well as ongoing training and leadership development 
challenges, will largely determine the timeframe in which the Iraqi 
armed forces achieve operational independence in addressing the 
internal security threats to Iraq. Over the longer term, the Iraqi 
armed forces will need to take on greater responsibility for the 
external defense of Iraq as well, and these additional responsibilities 
are likely to require the Ministry of Defense to reassess equipment 
requirements in the future.
    Mr. Ortiz. Based on your assessment of the current ISF capabilities 
and U.S. training strategy, how much more time is required before the 
Iraqis have viable, capable and trained security forces that can 
operate independently and within the Rule of Law?
    General Jones. The Commission was tasked by Congress to assess the 
current capacity of the Iraqi Security Forces to fulfill four principal 
responsibilities: maintain the territorial integrity of Iraq; deny safe 
haven to international terrorists; bring greater security to the 
country's 18 provinces in the next 12 to 18 months; and bring an end to 
sectarian violence to achieve national reconciliation.
    The Commission's overall assessment is that although the ISF as a 
whole have made significant progress in many areas, they are not yet 
able to execute their missions independently. Without continued combat 
support, combat service support, and assistance from Coalition Military 
Transition Teams and other types of transition teams, it is unlikely 
that the ISF will achieve, in the near term, the proficiency and 
readiness needed to provide security for Iraq. More specifically, the 
Iraqi armed forces will not be ready to independently fulfill their 
security role within the next 12 to 18 months and the Commission 
foresees that the Iraqi armed forces will rely on Coalition forces for 
at least another two to three years for combat service support in 
particular.
    The Commission concurs with the view expressed by U.S., Coalition, 
and Iraqi experts that the Iraqi Army is capable of taking over an 
increasing amount of day-to-day combat responsibilities from Coalition 
forces. In the assessment of the Iraqi Minister of Defense, the Army 
could be 60 percent capable of independently protecting Iraq from 
external threats by 2012 and entirely independent in this regard by 
2018. He also insisted that the Iraqi Army will be able to accept more 
responsibility for direct combat against internal threats in 2008.
    The fledgling Iraqi Air Force and Iraqi Navy, despite significant 
progress in a short period of time, will remain dependent on Coalition 
training, equipment, and combat and combat service support for the 
foreseeable future.
    The Iraqi police are improving at the local level predominantly 
where the ethnic makeup of the population is relatively homogenous and 
the police are recruited from the local area, but police forces are 
hampered by corruption and dysfunction within the Ministry of Interior. 
Ministerial capacity must improve if the Iraqi police are to meet their 
essential security responsibilities.
    Mr. Ortiz. According to a January 2007 GAO report, about 90,000 
rifles and 80,000 pistols were issued to the Iraqi Police and can no 
longer be accounted for. As part of your assessment, did you find 
additional accountability problems within the ISF, if so, can you share 
them with us and any possible suggestions to fix this large problem?
    General Jones. The Commission did not look specifically at this 
particular equipment accountability issue, but it did assess broadly 
the issue of equipment accountability inside the ISF and determined 
that the Coalition and Government of Iraq are placing greater and 
needed emphasis on developing systems for equipment accountability. For 
example, the Iraqi Army training program now links new Iraqi recruits 
with their assigned weapons via biometric identifications and a well--
functioning database. Coalition officials and senior Iraqi officials 
also told the Commission that this type of technology is being employed 
in some police settings as well. These are needed steps in the right 
direction, but clearly these accountability systems are not yet fully 
functioning.

                                  <all>

</pre></body></html>
